<html>
<title> - OVERSIGHT HEARING ON FISCAL YEAR 2000 BUDGET REQUESTS OF THE U.S. GEOLOGICAL SURVEY, THE OFFICE OF SURFACE MINING, THE MINERALS MANAGEMENT SERVICE AND THE ENERGY AND MINERALS PROGRAM OF THE BUREAU OF LAND MANAGEMENT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  FISCAL YEAR 2000 BUDGET REQUESTS OF THE U.S. GEOLOGICAL SURVEY, THE 
   OFFICE OF SURFACE MINING, THE MINERALS MANAGEMENT SERVICE AND THE 
      ENERGY AND MINERALS PROGRAM OF THE BUREAU OF LAND MANAGEMENT

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY
                         AND MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                   FEBRUARY 25, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-12

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                     U.S. GOVERNMENT PRINTING OFFICE
55-815                       WASHINGTON : 1999






                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

              Subcommittee on Energy and Mineral Resources

                    BARBARA CUBIN, Wyoming, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   NICK J. RAHALL II, West Virginia
CHRIS CANNON, Utah                   ENI F.H. FALEOMAVAEGA, American 
KEVIN BRADY, Texas                       Samoa
BOB SCHAFFER, Colorado               SOLOMON P. ORTIZ, Texas
JIM GIBBONS, Nevada                  CALVIN M. DOOLEY, California
GREG WALDEN, Oregon                  PATRICK J. KENNEDY, Rhode Island
THOMAS G. TANCREDO, Colorado         CHRIS JOHN, Louisiana
                                     JAY INSLEE, Washington
                                     ------ ------
                    Bill Condit, Professional Staff
                     Mike Henry, Professional Staff
                  Deborah Lanzone, Professional Staff
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 25, 1999...................................     1

Statements of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................     1
        Prepared statement of....................................     2
    Rahall, II, Hon. Nick J., a Representative in Congress from 
      the State of West Virginia.................................     4
        Prepared statement of....................................     5
    Underwood, Hon. Robert, a Delegate in Congress from the 
      Territory of Guam..........................................     2
        Prepared statement of....................................     3

Statements of witnesses:
    Groat, Charles, Director, U.S. Geological Survey, U.S. 
      Department of the Interior.................................     6
        Prepared statement of....................................    25
    Hatfield, Nina, Deputy Director, Bureau of Land Management, 
      U.S. Department of the Interior............................     9
        Prepared statement of....................................    27
    Karpan, Kathy, Director, Office of Surface Mining Reclamation 
      and Enforcement, U.S. Department of the Interior...........    13
        Prepared statement of....................................    29
        Responses to questions from Mr. Rahall...................    69
    Kitsos, Thomas, Acting Director, Minerals Management Service, 
      U.S. Department of the Interior............................    10
        Prepared statement of....................................    34

Additional material supplied:
    Bolognese, Kerry D., Asst. Director-Federal Relations, 
      NASULGC, Washington, DC, prepared statement of.............    51

 
   OVERSIGHT HEARING ON FISCAL YEAR 2000 BUDGET REQUESTS OF THE U.S. 
     GEOLOGICAL SURVEY, THE OFFICE OF SURFACE MINING, THE MINERALS 
MANAGEMENT SERVICE AND THE ENERGY AND MINERALS PROGRAM OF THE BUREAU OF 
                            LAND MANAGEMENT

                              ----------                              


                      THURSDAY, FEBRUARY 25, 1999

              House of Representatives,    
                     Subcommittee on Energy and    
                                 Mineral Resources,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:08 p.m., in 
Room 1324, Longworth House Office Building, Hon. Barbara Cubin 
[chairwoman of the Subcommittee] presiding.

 STATEMENT OF HON. BARBARA CUBIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF WYOMING

    Mrs. Cubin. The Subcommittee on Energy and Mineral 
Resources will please come to order.
    The Subcommittee is meeting today to hear testimony on the 
Fiscal Year 2000 budget request of the USGS, the Office of 
Surface Mining, the Minerals Management Service, and the energy 
and minerals programs of the BLM. Under rule 4(G) of the 
Committee rules, any oral opening statements at hearings are 
limited to the Ranking Majority Member and the Chairman, but we 
are going to expand that today to any other members that want 
to give an opening statement.
    So I am skipping all that, Bill.
    The Subcommittee is meeting today to hear testimony on the 
administration's Fiscal Year 2000 budget request of the four 
Interior Department agencies within our jurisdiction. First, we 
have the U.S. Geological Survey, which ``provides the nation 
with reliable, impartial information to describe and understand 
the Earth.'' At least that is what their webpage says they do 
and I think they do.
    [Laughter.]
    Then we have three bureaus which are regulatory in nature: 
the Minerals Management Service, the Bureau of Land Management, 
and the Office of Service Mining Reclamation and Enforcement. 
The MMS and the BLM's energy and minerals programs are the 
keepers of federally owned mineral rights. That is, the two 
agencies administer the laws governing the disposition of our 
public land and the Outer Continental Shelf mineral endowment. 
I often wish that there was more disposing of and less keeping 
of public lands minerals in order to enlarge the revenues that 
are derived from this endowment, but that is a debate for 
another day.
    Unique among the Subcommittee's agencies is the Office of 
Surface Mining, which administers the Federal law governing the 
surface impacts of all coal mined in the United States, whether 
it is on public land or private.
    Today we are pleased to have before us the new director of 
the U.S. Geological Survey, Dr. Charles Groat, a first-time 
witness before this Subcommittee. We would like to welcome you. 
Followed by Ms. Kathy Karpan of Rock Springs, Wyoming, the 
director of the Office of Surface Mining and a friend of mine. 
We've known each other in Wyoming for a long time and I have 
always enjoyed with Ms. Karpan and continue to do so. And we 
have the acting director of the Minerals Management Service, 
Dr. Tom Kitsos. And, lastly, Ms. Nina Hatfield, a deputy 
director of the Bureau of Land Management.
    [The prepared statement of Mrs. Cubin follows:]

 Statement of Hon. Barbara Cubin, a Repesentative in Congress from the 
                            State of Wyoming

    The Subcommittee is meeting today to hear testimony on the 
Administration's Fiscal Year 2000 budget request of the four 
Interior Department agencies within our jurisdiction. First, we 
have the U.S. Geological Survey, which ``provides the Nation 
with reliable, impartial information to describe and understand 
the Earth''--at least that's what their webpage reads. Then we 
have three bureaus which are regulatory in nature: the Minerals 
Management Service, the Bureau of Land Management, and the 
Office of Surface Mining, Reclamation & Enforcement.
    The MMS and the BLM's energy & minerals program are the 
``keepers'' of federally owned mineral rights. That is, the two 
agencies administer the laws governing the disposition of our 
public land and outer continental shelf mineral endowment. I 
often wish there was more ``disposing'' and less ``keeping'' of 
public lands minerals in order to enlarge the revenues derived 
from this endowment, but that's a debate for another day.
    Unique among the Subcommittee's agencies is the Office of 
Surface Mining, which administers the Federal law governing the 
surface impacts of all coal mined in the U.S. whether it be 
public land or private.
    Today, we are pleased to have before us the new Director of 
the U.S. Geological Survey, Dr. Charles Groat, a first-time 
witness before the Subcommittee; followed by Ms. Kathy Karpan, 
of Rock Springs, Wyoming, Director of OSM; then the Acting 
Director of the Minerals Management Service, Dr. Tom Kitsos; 
and lastly, Ms. Nina Hatfield, a Deputy Director of the Bureau 
of Land Management.

    Mrs. Cubin. The Chair now recognizes the Ranking Minority 
Member for any opening statement that he might have.

STATEMENT OF HON. ROBERT UNDERWOOD, A DELEGATE IN CONGRESS FROM 
                              GUAM

    Mr. Underwood. Thank you, Madam Chairwoman. Today we 
welcome witnesses from the Bureau of Land Management, Office of 
Surface Mining, Minerals Management Service, and the U.S. 
Geological Survey to discuss their proposed budget requests for 
Fiscal Year 2000.
    The DOI's Fiscal Year 2000 budget request represents an 
increase of $832 million, or 10.6 percent, over the 1999 
appropriations. The DOI request of $8.7 billion underscores 
President Clinton's commitment to conserving the nation's 
natural and cultural resources. The budget request focuses on 
priority initiatives, such as President Clinton's Land Legacy 
Initiative, which is designed to protect and revitalize 
America's public land resources.
    Within the purview of the Energy Subcommittee, the DOI 
budget includes $25 million to increase reclamation of 
abandoned coal mining by 15 percent, as part of the 
administration's Clean Water Action Plan. An additional 
highlight of the request is the President's budget request of 
$838.5 million for the U.S. Geological Survey. The request 
includes $18.5 million in new funding to support science 
priorities that will address resource management issues and 
challenges to maintain diverse and healthy ecosystems.
    Another feature of this request is the MMS budget of $240 
million for managing the nation's offshore mineral resources. 
This is about $16.2 million above the 1999 level. Wisely, MMS 
proposes to assign the increased funds to updating their 
computerized royalty management program. Management of the 
Outer Continental Shelf plays a significant role in the 
nation's energy picture. Revenues collected by the MMS Federal 
offshore oil and gas program will support President Clinton's 
Lands Legacy Initiative or one of the legislative proposals now 
pending before the Resources Committee to dedicate OCS receipts 
to various conservation programs.
    The BLM's Fiscal Year 2000 budget request is 
$1,268,700,000. Of that amount, they request $72 million for 
the energy and minerals program. This is an increase of 3.3 
percent above the Fiscal Year 1999 enacted level of funding, 
which will be used to fund employee pay raises.
    Energy and mineral resources generate the highest 
commercial values amongst the various uses of public land. Of 
the $1.1 billion in annual revenues from public lands, energy 
and mineral development generated nearly $1 billion through 
rents, royalties, bonuses, sales, and fees. The public lands 
produce 33 percent of the nation's coal, 11 percent of its 
natural gas, and 5 percent of its oil. These lands also produce 
a large portion of the nation's fertilizer minerals, mineral 
materials, gold, silver, and other metals. During 1998, BLM 
administered 370 coal leases; 46,000 oil and gas leases, 
although only 20,000 are actually in production.
    I look forward to hearing the testimony of our witnesses on 
these important matters. Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Underwood follows:]

  Statement of Hon. Robert Underwood, a Delegate in Congress from the 
                           Territory of Guam

    Today, we welcome witnesses from the Bureau of Land 
Management, Office of Surface Mining, Minerals Management 
Service and the U.S. Geological Survey to discuss their 
proposed budget requests for Fiscal Year 2000.
    The Department of the Interior's FY 2000 budget request 
represents an increase of $832 million, or 10.6 percent over 
the 1999 appropriations. The DOI request of $8.7 billion 
underscores President Clinton's commitment to conserving the 
nation's natural and cultural resources. The DOI's FY 2000 
budget request focuses on priority initiatives such as 
President Clinton's Lands Legacy Initiative, which is designed 
to protect and revitalize America's public land resources.
    Within the purview of the Energy Subcommittee, the DOI 
budget includes $25 million to increase reclamation of 
abandoned coal mining by 15 percent, as part of the 
Administration's Clean Water Action Plan. An additional 
highlight of the request is the President's budget request of 
$838.5 million for the U.S. Geological Survey. The request 
includes $18.5 million in new funding to support science 
priorities that will address resource management issues and 
challenges to maintain diverse and healthy ecosystems.
    Another feature of this FY 2000 request is the MMS budget 
of $240.2 million for managing the nation's offshore mineral 
resources. This is about $16.2 million above the 1999 level. 
Wisely, MMS proposes to assign the increased funds to updating 
their computerized royalty management program. Management of 
the Outer Continental Shelf plays a significant role in the 
nation's energy picture. Revenues collected by the MMS Federal 
offshore oil and gas program will support President Clinton's 
Lands Legacy Initiative--or one of the legislative proposals 
now pending before the Resources Committee to dedicate OCS 
receipts to various conservation programs.
    The BLM's 2000 Budget request is $1,268,700,000. Of that 
amount, they request $72,230,000 for the energy and minerals 
program. This is an increase of $2,286,000, or 3.3 percent 
above the FY 1999 enacted level of funding which will be used 
to fund employee pay raises. Energy and mineral resources 
generate the highest commercial values among the various uses 
of public lands. Of the $1.1 billion in annual revenues from 
the public lands, energy and mineral development generated 
nearly $1 billion though rents, royalties, bonuses, sales and 
fees. The public lands produce 33 percent of the Nations coal, 
11 percent of its natural gas and 5 percent of its oil. These 
lands also produce a large portion of the Nation's fertilizer 
minerals, mineral materials, gold, silver, and other metals. 
During 1998, BLM administered 370 coal leases, 46,000 oil and 
gas leases--although only 20,000 are actually in production. 
During that time, BLM also oversaw production of more than 15 
million cubic yards of sand, gravel and other mineral 
materials. Of particular note in this area, is the effort to 
revise the outdated surface management rules for hard rock 
mining.
    I look forward to hearing the testimony of our witnesses on 
this important subject.

    Mrs. Cubin. Congressman Walden, do you have an opening 
statement?
    Mr. Walden. No, thank you.
    Mrs. Cubin. Congressman Rahall?

   STATEMENT OF HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Madam Chair. I appreciate your 
making the exception and allowing me to give an opening 
statement.
    While the budgets and programs of all four of the agencies 
that we are reviewing today are important, I wanted to take 
just a moment to make a few comments on matters involving the 
Office of Surface Mining.
    This has been a very troubling year in the coal fields of 
southern West Virginia. With mountaintop removal mining 
operations becoming increasingly larger--perhaps more so than 
the law ever originally envisioned--both OSM and the Corps of 
Engineers, which issues section 404 permits, were unprepared 
and unable to cope with the regulatory demands operations of 
this nature placed upon them. OSM's oversight of the State 
regulatory program in this area was found to be non-existent.
    Post-mining land uses were being permitted that were a 
violation of the letter or, if not that, certainly the intent 
of section 515(c) of SMCRA and OSM by perhaps every account 
other than its own failed to provide adequate guidance on one 
of the most critical reclamation standards of the law, and that 
is: What constitutes approximate original contour?
    While OSM avoided being the subject of a major lawsuit on 
these matters, litigation against the State regulatory 
authority and the Corps of Engineers has resulted in a Justice 
Department brokered settlement agreement. As a result, the EPA, 
Fish and Wildlife Service, the Corps, and OSM are now working 
to implement an improved regulatory program, focusing in West 
Virginia and then Kentucky.
    Over the years, I have been OSM's most staunch supporters 
in the Congress. But I have also been one of its critics as 
well when it has dropped the ball on major issues such as this 
one. For her part, Director Karpan inherited the problems, 
which were made public last year. And I appreciate her 
leadership, know that she has had experience here on the Hill 
working for a good colleague of ours on this Committee, 
Representative Teno Roncalio. And her background is extensive 
and well-placed. It is now, however, incumbent upon Director 
Karpan, in my opinion, to display the type of leadership 
necessary to swiftly correct deficiencies in the mountaintop 
removal mining regulatory program.
    This is no laughing matter in the hills and hollows of the 
State that I represent. While the regulatory program remains 
unsettled, citizens lives and homes are being disrupted, miners 
face the possibility of layoff, and the economy in places like 
Logan, Mingo, and Boone Counties, which is so dependent on 
coal, swings in the balance.
    Our dream when enacting section 515(c) of the Act was to 
leave people in the coal fields with viable economic 
development opportunities, once the coal ran out, as a trade-
off for allowing a variance for mountaintop removal mining. And 
I recall well working my first year in the Congress on this 
Committee and in the conference committee and working through 
these trade-offs. SMCRA is more than an environmental law; it 
is also social legislation.
    I have not given up hope for this dream and will not. But 
for it to become a reality, it is incumbent upon agencies like 
OSM to do the job that Congress has entrusted it with. The eyes 
of Appalachia, Director Karpan, are upon you and your agency. 
Thank you, Madam Chair.
    [The prepared statement of Mr. Rahall follows:]

 Statement of Hon. Nick Rahall, a Representative in Congress from the 
                         State of West Virginia

    While the budgets and programs of the four agencies we are 
reviewing today are all important, I wanted to take this 
opportunity to make a few comments on a matter involving the 
Office of Surface Mining.
    This has been a very troubling year in the coalfields of 
southern West Virginia.
    With mountaintop removal mining operations becoming 
increasingly larger, both OSM and the Corps of Engineers, which 
issues section 404 permits, were unprepared and unable to cope 
with the regulatory demands operations of this nature placed on 
them.
    OSM's oversight of the State regulatory program in this 
area was found to be non-existent.
    Post-mining land uses were being permitted that were a 
violation of the letter, or if not that, certainly the intent 
of section 515(c) of SMCRA and OSM by perhaps every account but 
its own failed to provide adequate guidance on one of the most 
critical reclamation standards of the law; what constitutes 
approximate original contour.
    While OSM avoided being the subject of a major lawsuit on 
these matters, litigation against the State regulatory 
authority and the Corps of Engineers has resulted in a Justice 
Department brokered settlement agreement.
    As a result, the EPA, Fish and Wildlife Service, the Corps 
and OSM are now working to implement an improved regulatory 
program focusing in West Virginia and then Kentucky.
    Over the years, I have been OSM's most staunchest supporter 
in the Congress. But I have also been one of its critics as 
well when it has dropped the ball on major issues such as this 
one.
    For her part, Director Karpan inherited the problems which 
were made public last year. It is now, however, incumbent upon 
her to display the type of leadership necessary to swiftly 
correct deficiencies in the mountaintop removal mining 
regulatory program.
    This is no laughing matter in the hills and hollows of West 
Virginia. While the regulatory program remains unsettled, 
citizens lives and homes are being disrupted, miners face the 
possibility of layoff, and the economy in places like Logan, 
Mingo and Boone Counties which is so dependent on coal swings 
in the balance.
    Our dream when enacting section 515(c) of the Act was to 
leave people in the coalfields with viable economic development 
opportunities once the coal ran out as a trade-off for allowing 
a variance for mountaintop removal mining.
    SMCRA is more than an environmental law; it is also social 
legislation.
    I have not given up hope for this dream, and will not.
    But for it to become a reality is it incumbent upon 
agencies like the Office of Surface Mining to do the job 
Congress has entrusted with it. The eyes of Appalachia, 
Director Karpan, are upon you.
    Thank you.

    Mrs. Cubin. Certainly. Before I recognize Dr. Groat for his 
testimony, let me remind the witnesses that, under our 
Committee rules, your entire testimony will be submitted in the 
record, but we ask that you keep your oral testimony to five 
minutes. So, with that--excuse me, the boss just said they 
gave--it is 10. So, Dr. Groat, if you could please stay within 
10 minutes in your oral testimony.

 STATEMENT OF CHARLES GROAT, DIRECTOR, U.S. GEOLOGICAL SURVEY, 
                U.S. DEPARTMENT OF THE INTERIOR

    Dr. Groat. Thank you, Madam Chairman. I will shoot for 
five.
    Madam Chairman and Members of the Subcommittee, I am going 
to just give you a brief overview of my written testimony and 
hit a few highlights. You are correct; I am brand-new at this. 
My previous experience as a state person, a colleague and a 
client of the USGS has kind of turned the tables, so I am happy 
to be here to present what the U.S. Geological Survey sees as a 
couple of its success stories from the past year that are 
guiding our budget submittal for the Year 2000.
    I want to highlight three or four things that we feel are 
significant accomplishments that give you some indication of 
not only where we have been, but where we are going in Fiscal 
Year 2000. One of our highest priorities is reducing the 
effects of natural disasters and then mitigating those effects 
once they have occurred.
    And I am sure you will all remember the torrential El Nino 
rains we had in 1998 and the fact that they caused, in many 
cases, flooding and landsliding. Back in 1982, we had a 
significant El Nino event as well. Landsliding and flooding 
occurred then, but in the case of 1982, we had 25 deaths from 
landsliding. In the intervening years, as part of its hazards 
program, USGS increased its ability to map landslides and also 
to predict where landslides would occur and to give advance 
warning. As a result of that, in the 1998 El Ninos, there were 
no deaths from landslides in the San Francisco Bay area. We 
don't claim all the credit for that, but certainly some of our 
technology had an impact on that effect.
    Another thing that I think is significant that you all 
would be interested in--and I was, particularly coming from the 
Southwest, having come to this job from El Paso where water is 
an extremely valuable and diminishing resource--was our five-
year report on water consumption in the United States, which 
many managers use to predict use in the future. We found out, 
in our report for 1995, that actual per capita water 
consumption from 1990 had actually decreased, despite the fact 
that our economy is booming and the fact that our population is 
growing, which is an encouraging sign that conservation efforts 
to encourage Americans across the country to use less water are 
having some effect, not only as individuals, but as industries. 
And this is information that I think is both encouraging and 
useful.
    We are also concerned, as is everyone across the country, 
about how the American population is expanding into areas that 
have been used for other purposes. Not only in urban areas that 
we are familiar with in the East and in the Midwest, but in 
Western lands as well where town are seeing ranchette 
developments spring up and non-rural people move into rural 
settings. The ability to predict that and determine what the 
impacts are going to be on agriculture, on forestry, on 
grazing, and on the other uses of the land are extremely 
important, not only on Federal lands, but on private lands as 
well.
    We have been able to map and describe with our base 
inventory of information--100-year archive of historic maps and 
30-year archive of satellite data--where these things not only 
have occurred, but where the projection are that they will 
occur. And this is another case where planners have advanced 
warning of expansion that they need to be concerned about.
    And, finally, as an accomplishment, I would like to point 
out that some of the models and data that we provide for the 
Forest Service, for the BLM, and the Park Service have been 
used to develop a watershed-based strategy to clean up 
abandoned mine lands, particularly in the West. One of the 
concerns that the mining industry faces, and those that manage 
the lands that they are on, is how we remediate areas where 
there have been problems.
    One of the things we have been able to help understand is 
the relative severity of those problems and what is commonly 
misunderstood is that many of those areas had natural 
contributions of mineral matter anyway, before there was any 
mining. This baseline information is extremely important in 
understanding what kind of remediation is appropriate and 
necessary. And we think we have assisted those other bureaus in 
the Department of the Interior and other partners in 
understanding that and in developing sound restoration 
strategies based on our scientific understanding of what is 
going on there. Those are just a few examples, Madam Chairman 
and Members, where I think we have been helpful.
    In the Fiscal Year 2000 budget, we are requesting $838.5 
million, an increase of about 5 percent, over our budget for 
1999. And we hope that this budget, as in the past, will allow 
us to deliver relevant products, not only regarding hazards, 
but regarding resources and applications of science that are 
useful to all of our customers in the year 2000.
    We work very closely, historically, with the Park Service, 
with BLM, the Fish and Wildlife Service, and other Interior 
bureaus in providing scientific information that they can use 
in their land and resource management responsibilities. In 
fact, over 20 percent of our budget goes to those purposes.
    In the year 2000, we are adding and requesting $15 million 
of additional money to bring integrated science to their 
service. Through direct consultation with them, we will develop 
science strategies that involve geology, biology, land imagery 
information, as well as water resource information, to meet 
more integrated science needs. That is a new feature of our 
budget request for the year 2000 and we and the other agencies 
are working very closely to identify what the needs are.
    We are also requesting an increase in our ability to deal 
with natural disasters. Fifty billion dollars a year is the 
neighborhood cost for the impact of natural disasters on this 
country. Clearly, usable scientific information to warn people 
of disasters and then to deal with their effects is of 
increasing value as we urbanize and as we seem to gather our 
populations in areas where natural disasters are more 
prevalent.
    The fact that we had three devastating hurricanes in 1998--
Bonnie, George, and Mitch--gave us an excellent opportunity to 
see where we were in dealing with those disasters and where we 
could improve. Sticking to Hurricane Mitch, we were able to 
deliver significant information in support of other Federal 
agencies assisting Central America that could be used to 
mitigate the disasters, which has many applications in this 
country as well as in Central America.
    We learned in that process that putting information 
together with all of the technology we have these days is not 
the big challenge. It is putting the information in a form 
where it can be used. And so we learned that we need protocols 
and data standards before it can be used in decisionmaking. So, 
in the year 2000, we are requesting additional money, $8 
million, to develop and further refine a disaster information 
system that will allow that kind of information to be useful 
not only in predicting disasters, but also in dealing with the 
effects of those disasters.
    We are also requesting $5.5 million to upgrade our ability 
to anticipate natural disasters, to improve our stream gauging 
network, and to improve our seismic monitoring network so that 
we can warn and inform before disasters occur.
    And, finally, in this vein, information is the name of the 
value we provide to communities and agencies that need to 
predict and deal with the disasters. There is a $10 million 
request in our budget through the Community and Federal 
Information Partnership to improve our ability to give this 
information to local communities, to State agencies, and 
others. Two-thirds of that will go out of the Bureau in grants 
and contracts to those organizations to make our information 
and that of other agencies available to them. It will create 
their resource-related data bases that they need for that. That 
is part of the $39.5 million administration effort in the whole 
partnership program.
    I want to conclude with some comments on restructuring. Our 
budget has been modified in the year 2000 to make a truer 
representation of what money is going for science and programs 
and what money is being used for administrative purposes, such 
as facilities and science support costs. So if you look at our 
budget, you will see many program lines that look like they 
have been decreased. The fact is that in most of those lines 
the science money remains the same; the money that has been 
taken out has been put in lines to identify what it is is used 
for: administrative monies and facilities monies.
    So now you will see what you are getting. We will have a 
clearness in budgeting program that we think will serve not 
only those of you that have to look at our programs, but also 
those who we are dependent as partners and customers as they 
work with us and have some true feel for where their money is 
being invested. We think this is a significant step, along with 
our ability to integrate our science to better serve our 
customers.
    We are also looking forward, Madam Chairman, to working 
with this Subcommittee as we deal with adjustments to the 
National Geologic Mapping Act, which we think is a great 
success story in our partnership with the States, to make sure 
that the States continue to receive the appropriate funding for 
their efforts. We are also looking forward to working with your 
colleagues on the House Science Subcommittee to reauthorize the 
National Earthquake Hazards Reduction Act, which is authorized 
through 1999, but which needs reauthorization after that.
    So, with those comments, Madam Chairman, I will close and 
let the others go ahead and be, of course, willing to answer 
questions when my turn comes.
    [The prepared statement of Dr. Groat may be found at the 
end of the hearing.]
    Mrs. Cubin. Thank you very much, Dr. Groat. The Chair 
recognizes Nina Hatfield for her testimony.

  STATEMENT OF NINA HATFIELD, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Hatfield. Thank you, Madam. Madam Chairman and members 
of the Subcommittee, I appreciate this opportunity to appear 
before you today to discuss the Fiscal Year 2000 budget request 
for the Bureau of Land Management energy and minerals programs. 
I would like to share with you some examples of how the BLM 
continues to try to improve its minerals programs so that we 
can provide better service to producers who operate on the 
public land, while ensuring that environmentally sound recovery 
of mineral resources takes place.
    To support these goals, the President's Fiscal Year budget 
proposes about $1.2 billion for the BLM, including funds for 
the operation of the Bureau, payments in lieu of taxes, 
construction and facilities maintenance, land acquisition, as 
well as hazardous materials and firefighting activities across 
the entire Department of the Interior. Of that $1.2 billion, 
$107 million of it are devoted to energy and mineral activity.
    Our workload is considerable and continues to grow. At the 
end of 1998, there were over 20,000 producing oil and gas 
leases; 128 producing coal leases; and about 768 leases of 
other mineral resources. From these activities, the States 
received revenues totaling about $550 million in 1998. Federal 
royalties from these mineral activities are projected to 
increase in the year 2000, totaling about $1.2 million, which 
would result in payments to the States of over $600 million.
    I would like to highlight just several of the programs and 
activities that we are focusing on. In December, the BLM 
proposed comprehensive oil and gas regulations to consolidate 
and streamline our current BLM oil and gas regulations. These 
regulations had the effect, we believe, of giving operators 
greater flexibility in meeting certain agency requirements and 
ensuring that appropriate bond amounts covered costs such as 
reclamation. In response to public requests and to allow an 
optimal time to analyze and comment on the proposed regulation, 
the comment period has recently been extended to June 4 of 
1999.
    On February 9, BLM published its proposed hard rock mining 
surface management or 3809 regulations. These are intended to 
prevent unnecessary or undue degradation of public land 
resources by mining operations and improve the clarity and 
organization of BLM's existing 3809 surface mining regulations. 
A series of public hearings are planned throughout the West and 
in Washington, DC, to gather comment on the rules. No final 
regulations will be published before October 1, 1999, in 
accordance with congressional mandates.
    In BLM, we expect that exploration for coalbed methane will 
increase greatly over the next few years, especially in Wyoming 
and the Rocky Mountain States. Operators in BLM are awaiting 
the Supreme Court's decision about whether the ownership of 
coalbed methane gas adheres to the ownership of the coal, 
rather than to the ownership of the oil and gas. We are working 
diligently within BLM towards trying to develop solutions to 
handle the flood of applications for permits to drill that we 
are expecting that will follow the court's decision.
    Recognizing that oil prices are as low as they have been 
since 1975 and that operators were threatened with not being 
able to continue production on properties with low production, 
BLM has implemented a two-year policy of granting a suspension 
on leases with stripper oil properties, those being properties 
that average 15 barrels or less of production per day. In 
addition, our existing regulations will allow us to make a 
case-by-case determination about whether to grant a suspension 
for other operators.
    We continue to pursue measures that would increase our 
efficiency, as well as promoting environmentally sound recovery 
of mineral resources. And we look forward to continuing to work 
with members of the Subcommittee, the public, the States, and 
the industry to improve our program. And I would look forward 
to answering any questions that the Committee might have.
    [The prepared statement of Ms. Hatfield may be found at the 
end of the hearing.]
    Mrs. Cubin. Thank you very much. The Chair now recognizes 
Dr. Kitsos.

     STATEMENT OF THOMAS KITSOS, ACTING DIRECTOR, MINERALS 
      MANAGEMENT SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Kitsos. Thank you, Madam Chairman and members of the 
Subcommittee. I want to submit for the record, through your 
Committee clerk, a copy of a report entitled, ``A Road Map to 
the 21st Century.'' This report discusses in some detail the 
Bureau's rationale for and approach to reengineering our 
royalty management program, which is one of our top priorities 
for Fiscal Year 2000.
    [The information may be found at the end of the hearing.]
    Dr. Kitsos. As you know, Madam Chairman, the Minerals 
Management Service really has important missions for managing 
our nation's OCS in an environmentally sound manner and 
collecting, verifying, and distributing mineral revenues in a 
timely manner, revenues generated from Federal leases onshore 
and offshore in Indian lands.
    In carrying out this mission, MMS programs account for 
about 27 percent of the natural gas produced in the United 
States and about 20 percent of the oil produced in the United 
States. From an economic standpoint, in Fiscal Year 2000, MMS, 
we estimate, will collect about $4 billion in Federal mineral 
receipts. And of that $4 billion, the distribution goes 
something like this: $611 million in mineral revenue payments 
to onshore States; $106 million in shared OCS oil and gas 
receipts with coastal States; $150 million to Indian tribes and 
individual mineral owners, Indian mineral owners; $897 million 
transferred to the Land and Water Conservation Fund; $479 
million to the Reclamation Fund; and the remainder, about $1.9 
billion, to be deposited in miscellaneous receipts in the 
Federal Treasury.
    In the last five years, MMS, we think, has had a very sound 
record. We have streamlined our operations. We have reduced 
overall personnel by 12 percent and supervisory positions by 23 
percent. We have reengineered many of our operations. We have 
received the Vice President's Hammer Award twice and numerous 
other environmental awards. We have held 14 offshore lease 
sales, including three record-breaking sales in the Gulf. We 
have grossed over $4 billion in bonus bids for the Federal 
Government.
    We are conducting pilots on Royalty-in-Kind in Wyoming and 
for oil and royalty offshore gas in Texas. We have built a 
consensus on offshore leasing issues, making it possible to 
consider a lease sale in one controversial area, the eastern 
Gulf of Mexico and to actually hold a lease sale in another, 
the Cook Inlet in Alaska. We have worked hard on settling 
royalty claim disputes. We have fulfilled our trust 
responsibility to Indian tribes by working closely with BIA and 
BLM on a joint laboratory in Farmington, New Mexico, creating 
more cooperative programs and internships with Indian tribes 
and resolving a number of long-festering policy disputes.
    We have also assisted in the passage of legislation 
important to our programs. Most of that legislation came out of 
this Subcommittee and this Committee: the Deep Water Royalty 
Relief Act; the Royalty Fairness and Simplification; amendments 
to the Oil Pollution Act of 1990. We have worked with the 
Senate on ratification of the U.S.-Mexico boundary treaty, 
which affects deep water tracts in the Gulf of Mexico. And, in 
the 105th Congress, the Small Refiner Ratification Act.
    We have collected, in the last 5 years, through audit and 
compliance collections, as much as we had collected in the 
first 11 years of MMS's existence, about $1 billion.
    While we are proud of these accomplishments, we are not 
without remaining challenges. These challenges include: 
implementing the substantial pending effort to reengineer 
royalty management; studying the likely consequences of 
continued low natural gas and oil prices; gaining a better 
understanding to respond intelligently to the challenges 
presented by deep water OCS operations; regulating an industry 
that is complex and has become increasingly global in scope; 
and supporting increasing needs by States, localities, and 
other agencies for access to OCS sand and gravel for beach 
restoration and shoreline protection projects.
    With respect to our budget for Fiscal Year 2000, we are 
asking for $240.2 million to carry out our responsibilities. 
This is $16.2 million above the 1999 enacted level. However, 
the requested increase is covered by raising the cap on 
offsetting receipts from $100 million to $124 million. Because 
we are able to fund part of our operating budget--actually more 
than half--with offsetting receipts and because of programmatic 
reductions in several areas, MMS's request for direct 
appropriations is $116.2 million, or a decrease, of direct 
appropriation of $7.8 million from the Fiscal Year 1999 level.
    The investments we are proposing in 2000 will be directed 
into three primary areas. By investments, I mean increases over 
the enacted Fiscal Year 1999 appropriation. We are asking for 
an additional $10 million for the royalty reengineering effort; 
$1.4 million to support Gulf of Mexico activities; and $250,000 
for our international organization activities.
    I would like to briefly discuss each one of these. The 
royalty management program's reengineering effort was first 
funded in Fiscal Year 1999 at $5 million and continues to be 
MMS's number one priority in Fiscal Year 2000. The initial 
reengineering effort actually began in 1997, and it is designed 
to prepare the royalty management program for the challenges of 
today and the future.
    This new system will be organized around two core business 
processes: the ``financial management'' process, which will 
focus on financial accounting and the receipt and distribution 
of revenues, and the ``compliance and asset management'' 
process, which will focus on the entire realm of activities 
related to producing properties. Although the effort will take 
several years to fully implement, it is necessary because of 
new legislative mandates, changing energy markets, the need for 
more cost-effective operations, and outdated computer systems.
    We believe that this initiative is an excellent investment 
for several reasons: (1) because it will improve the timeliness 
and accuracy of payments to States and tribes; (2) it will save 
the minerals industry millions in operating and administrative 
costs by streamlining reporting requirements by 40 percent; (3) 
shorten the compliance cycle from 6 years to 3 years, aligning 
the processes more closely with industry's processes; and (4) 
it will improve information access and sharing capabilities. We 
also feel that, when we are fully implemented in our 
reengineering program, we will have reduced our administrative 
costs by about $3.5 million.
    The offshore program in the Gulf of Mexico remains active, 
despite low oil prices. We are asking for an increase of $1.4 
million in this category. In these times of declining oil 
prices and cutbacks in the oil and gas industry, it may seem 
unusual to ask for increased funding for the Gulf. However, the 
fact is that the Gulf of Mexico workload continues to grow. In 
the past few years alone, MMS has issued over 4,400 leases, 
which not only represents a substantial number of new leases to 
industry's inventory, but a dramatic increase in MMS 
responsibility.
    Industry appears committed to continue exploration and 
development activities in the Gulf, with continued industry 
interest in exploring and developing sub-salt areas in the 
shallow waters of the OCS and, especially, in deep water OCS 
areas where there have been over 125 wells drilled in the past 
year. There is an increase in demand on MMS to fulfill its 
regulatory responsibilities in a timely manner. We are 
currently responsible for regulating and inspecting nearly 
8,000 leases, about 3,900 platforms, and over 20,000 miles of 
pipeline in the Gulf of Mexico. The tremendous benefits of the 
OCS program justify, we believe, the request for a slight 
increase in funding Gulf activities, and it will be an 
excellent investment in our future.
    Finally, let me just note that, to ensure that the United 
States is a factor at the international table, we need to 
vigorously pursue involvement and participation in 
international organizations that oversee mineral exploration/
development. This will support U.S. policy objectives and 
provide assistance for U.S. industry interests and also 
continue to advance our commitment to safe and environmentally 
sound offshore oil and gas management.
    Currently, we are involved with a number of countries in 
developing cooperative information sharing arrangements, such 
as Norway and the United Kingdom. We are providing some 
technical assistance to countries interested in developing the 
Caspian Sea. We are working with Kazahkstan and Turkmenistan on 
regulatory regimes. We believe that this work is very important 
not only internationally, but for our domestic industry so that 
we have a level playing field with respect to their investment 
overseas. So we are asking for an increase of $250,000 in that 
category.
    This concludes my opening remarks. I will be happy to 
answer any questions, Madam Chairman.
    [The prepared statement of Dr. Kitsos may be found at the 
end of the hearing.]
    Mrs. Cubin. Thank you very much. Ms. Karpan.

 STATEMENT OF KATHY KARPAN, DIRECTOR, OFFICE OF SURFACE MINING 
  RECLAMATION AND ENFORCEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Karpan. Thank you very much, Madam Chairwoman. Nice to 
see you again and renew a longstanding friendship and working 
relationship.
    We have submitted testimony for the record and I will be 
very brief in highlighting what is in our budget, since there 
is very little that has changed from Fiscal Year 1999. For 
Fiscal Year 2000, we are asking for $305,824,000 with 640 full-
time total employees. That represents $27 million more than we 
requested and received in 1999.
    Two million dollars of that goes to uncontrollables in both 
the Abandoned Mine Land program in Title 5--and I should stop 
and say for members of the Committee that may not be as 
familiar with our program. Basically our agency administers one 
Act, the Surface Mining Control and Reclamation Act of 1977, 
and it operates under two titles. Title 5 has to do with active 
mining. Title 4 has to do with the reclamation of sites that 
were mined and then abandoned prior to the passage of the Act.
    The one remarkable thing in our budget request this year is 
the $25 million increase in money for abandoned mine land 
funding. And I remember, Madam Chairwoman, you offered and last 
year did send word to the House Appropriations Committee or 
your support for more funding. I know that Congressman Rahall 
has supported increased funding and as have other members of 
the Committee, and we appreciate it very much.
    But even more important than this significant increase, 
which is 10 times the increase we had last time, is that the 
administration is going on record in this budget as saying it 
wants to build up in its budget request to the point where in 
2003 we would have what would be called ``full funding.'' That 
is, the amount of our request would equal the revenue from the 
abandoned mine land fees. And that is a goal that has been 
fervently sought for many years by the States and tribes and we 
are very excited about it because we believe that this will 
accelerate the important clean up work that is going on in 
literally hundreds of sites around the country.
    If I could, Madam Chairwoman, with the balance of my time, 
I would like to respond, albeit too briefly, to Congressman 
Rahall's comments, which I take very much to heart. 
Congressman, you have been a very good friend to our agency 
over the years. We appreciate that and we hope that we will 
merit your support in the future.
    You know, when I worked for Congressman Roncalio, I didn't 
last long enough to see SMCRA passed, which tells you how many 
years that struggle went on. But I remember when our office was 
right down the hall in room 1315. We realized there were all 
kinds of trade-offs involved in the passage of that statute 
and, as the years go on, the way you weigh and balance those 
trade-offs changes. And I believe that the public has come to 
demand more and more of us in the mine regulation business.
    And I have asked myself, how is it that the mountaintop 
mining issue seemed to explode on the scene as it did and, 
unfortunately, right as I took over the helm at the Office of 
Surface Mining? And we went back and looked and it is not 
because we have had big equipment in the hills of West Virginia 
only recently. Some of the biggest equipment at the Hobet Mine 
has been there since 1983.
    But what we saw happen is, in the last three or four years, 
a dramatic spike upward in the amount of acreage that has been 
affected by mountaintop removal mining. And I think that is a 
function of the Clean Air Act encouraging companies to go after 
low-sulphur coal and the economies of scale caused by companies 
wanting to save money at a time when coal prices are declining. 
But what has happened is that the public is seeing these large 
valley fills and, in addition to all the other impacts of 
mining, has begun to ask questions of us about ``how big is too 
big?'' ``Do you understand all of the impacts on terrestrial 
life and aquatic life?'' And I believe that the public has 
rightly asked us to lift the bar, to raise the bar, in the 
level of scrutiny and the degree of regulation that we apply to 
these issues.
    We immediately began discussions with West Virginia, more 
than a year ago, and we have been working to remediate many of 
the problems that you have identified. We have talked with 
other Federal agencies and had discussions underway to conduct 
an environmental impact statement, even in advance of this past 
July, when, of course, we had the litigation commence in West 
Virginia where the West Virginia Highlands Conservancy sued, 
not us, but sued the State of West Virginia DEP and the Corps 
of Engineers on two sets of issues: one, on the Clean Water Act 
questions; one on the SMCRA questions.
    We have seen a partial settlement of that litigation, the 
Clean Water Act part, but the SMCRA issues have yet to be 
settled. And we will work with the State. We think there is 
more to be done there.
    Two things we want to tell you about what is coming out of 
the settlement. First, in terms of righting the regulations, of 
correcting where correction is needed. This programmatic 
environmental impact statement will involve four Federal 
agencies, as well as the State of West Virginia. We will have 
our agency, the Environmental Protection Agency, National Fish 
and Wildlife Service, and the Corps of Engineers. What we want 
to do is to understand how the Clean Water Act, SMCRA, the 
permitting of the Corps, the Endangered Species Act and other 
acts can be best coordinated to achieve better protection and 
better regulation.
    At the end of that period of time, we may be coming to you 
for additional authorities. We may have regulatory changes to 
make. But we will have the science there to make those 
decisions.
    In the interim, we are in the process of negotiating a 
memorandum of understanding to deal with another question you 
raised, and that is the coal miners in West Virginia who are 
worried about being put out of work while these regulatory 
issues are being sorted out. The memorandum of understanding 
will set, if not exactly a bright line, a line where, if you 
have a permit that is in the pipeline process that involves a 
watershed with 250 acres or less, then, generally speaking, 
that is going to be allowed to be permitted by the Corps of 
Engineers, as it has traditionally been done, with a general 
permit. If it is above that size, then there will be an 
individual Corps permit required unless the company wishes to 
negotiate and downsize the size of that operation.
    We have 38 permits in the pipeline right now. Sixteen of 
them can go forward with a general permit. Six are smaller 
scale, but there are some questions being raised so they have 
got to be worked on. And 16 will require individual permits, 
though, as we say, the coal companies are working on them.
    Finally, I want to say that we have produced for the 
Congress, at the request of the House Appropriations Committee, 
a report on mountaintop mining that has been subject to 
extensive comment. And I believe it could be summarized, 
briefly, in this way: We agree with you in two general areas of 
concern. Approximate original contour was not being enforced as 
it should be. We have a formula that we have discussed with not 
only West Virginia, but the States of Kentucky and Virginia 
that we believe will give us a site-specific, statutory-based 
way of making sure that the size of the valley fills is 
minimized by maximizing the amount of excess soil that must go 
back on the mountaintop, consistent with the statute.
    As for the post-mining land uses, we have had some 
unauthorized uses that may have been approved and we are 
reviewing those. We believe additional guidance is necessary 
and that is work is underway. And, in fact, in our report, we 
do have an action plan that will specify that in great detail.
    But, in conclusion, Madam Chairman, I want to assure the 
Committee that this subject has been at the top of my agenda 
throughout my tenure. We are working on it. We believe we are 
making real progress. And we would be glad to come up and brief 
you and discuss this issue at any time. And I thank you and I 
will welcome additional questions.
    [The prepared statement of Ms. Karpan may be found at the 
end of the hearing.]
    Mrs. Cubin. Thank you very much. I will begin the 
questioning with Ms. Hatfield. I want to talk about coalbed 
methane a little bit. As you referred to, coalbed methane 
development in the Powder River Basin in Wyoming will increase 
significantly over the next five years. In fact, there are 
approximately 1,500 applications, APDs, to be filed with the 
BLM each year. And, due to staff limitations in 1998, Buffalo, 
Wyoming's resource office only approved about 350 out of 450 
applications received. So there is a backlog for 1998 already. 
The BLM is scheduled to complete an EIS for this southeastern 
portion of the Powder River Basin in the summer of 1999. And 
once that is done, there will be another huge number of APDs 
that will be filed. Does your Fiscal Year 2000 budget contain 
additional resources to cover this huge increase?
    Ms. Hatfield. No, it does not. We recognize that there is a 
tremendous potential here for a huge workload that we are 
trying to deal with. Currently we are trying to use our 
existing resources in terms of trying to move people to where 
the APDs are going to need to be reviewed and issued. And we 
anticipate that, given our current staffing level, we could 
probably do as many as 400 APDs in this year.
    But we also have a problem in the fact that issuing each 
one of those APDs really has some downstream costs for us and 
we are trying to make sure that the environmental requirements 
are met, that we can do the appropriate review once they are in 
operation. So it is not just a one-year issue for us. We are 
looking at this influx probably coming over five years with 
additional downstream costs there.
    In terms of our Fiscal Year 2000 budget we are really 
trying to make decisions about priorities. We are also looking 
at an increase in grazing permits that we have to issue and 
making adjustments to our wild horse and burro program. We have 
not made significant progress in meeting our AMLs there. So we 
really are just trying to look at how we can adjust priorities.
    Mrs. Cubin. Well, what absolutely does not compute to me is 
that coalbed methane could mean a big boon to the Federal 
Treasury, in which case we could afford to hire the people that 
we need in years to come for monitoring and whatnot. And I 
can't understand why not one extra person has been sent to 
Wyoming to deal with 1,500 applications a year when you even 
project yourself you can only do 400 in a year and that is more 
than you did in 1998. This doesn't make any sense.
    Ms. Hatfield. Well, we would anticipate that we would 
probably need as much as $2.5 million in each year of the next 
5 years to accommodate this number of APDs.
    Mrs. Cubin. Well, why did you not ask for that?
    Ms. Hatfield. As I say, it is really just a matter of 
trying to deal with our workload. In every single program that 
we have, our budget has been flat. We have reduced our number 
of FTE about 10 percent over the last 5 years in an effort to 
try to move as much resource as we can to actual on-the-ground 
work. But in every single program we have, we are suffering 
with an increased workload, increased visitation to the public 
lands and it just really is a matter of trying to make the 
dollars that are available to us stretch over our many 
responsibilities.
    Mrs. Cubin. But you have to understand that, maybe, 
investing where income could come back to you ought to be a 
priority. But I am going to tell you that the longer I have 
served on this Committee, the more convinced I am that Federal 
land managers do not have enough money to do the job that 
they--they do not have the resources that they are required by 
statute to do. And I am currently looking at alternative ways 
to fund management of Federal lands. For example, the Land and 
Water Conservation Fund now can only be used for land 
acquisition. And I can't understand why we would want to 
continue to acquire and acquire when we can't afford to manage 
what we have. So maybe we should consider using some of that 
money to help with land management as well.
    I want to follow up on these. Oh, gosh, I have too many 
questions, but are you going to change any staff allocations to 
help deal with this huge influx of permits? I mean, it just is 
not a tenable situation. We have to do something, whether it is 
hire contract people to come in to help those folks get those 
permits processed or something. We have to do something and I 
would just like your guidance on it. If we have to look at your 
budget and take it out of someplace else, then you need to tell 
me where to take it from. But we have to deal with this. And, 
you know, I think it is kind of cowardly--not your fault--but 
to not acknowledge that, to just leave it up to us to go ahead 
and put the money in there.
    Ms. Hatfield. Well, I am trying not to be cowardly.
    Mrs. Cubin. Fine.
    Ms. Hatfield. I am trying to recognize the fact that we do, 
as you say--I would agree with you--that the job that we have 
in terms of managing the public lands on what has really been a 
flat budget over a number of years and trying to just struggle 
with uncontrollable increases as you deal with the management, 
that we are, as I say, trying to deal as best we can with 
competing priorities.
    Now, certainly, with the coalbed methane, we recognize that 
we have a serious problem to try to deal with. We are trying to 
shift some resources there. But we have to shift those 
resources within the appropriated dollars we get.
    Mrs. Cubin. Well, I just hear you saying you keep trying 
but I don't see any evidence of it either in your budget or in 
reallocation of resources, so, you know, I don't want to be 
argumentative and my time is up, but if the Committee will 
indulge me, I have one more question, either for you or for Dr. 
Kitsos. I am looking at the mineral revenue payments to the 
States projections. The actual, for Wyoming in 1998, is 
$236,883--I mean, million, excuse me. And then the estimate in 
1999 is up to $254,392,000. And in 2000, $263,168,000.
    Now since the price of oil is down, the price of coal is 
down, the price of trona is down, the price of gas is down, I 
wonder what these rosy--I would love to believe it since 
Wyoming, you know, really benefits. But I just wonder what 
these projections are based on. Is it based on larger 
production of gas over in Sublette County or where do these 
projections come from?
    Ms. Hatfield. I think that we are just looking at the fact 
that in the last few sales we have gotten an increased return 
on what has been put out there to be leased. So it is more of 
that kind of a projection, rather than the fact that the 
prices, in some cases, are going down, have gone down. But in 
terms of the recoveries that we have made in leases and 
projected royalties, we think it is going to go up slightly. It 
will not go up a great deal, but it may go up slightly.
    Mrs. Cubin. I am really not sure that----
    Ms. Hatfield. We would be glad to share--I would be glad to 
provide you some more details for the records, if that would 
help.
    [The information may be found at the end of the hearing.]
    Mrs. Cubin. Yes, I do have other questions that I will 
submit and, hopefully, you can get the answers to us by March 5 
because we are going to be doing our budgeting and I absolutely 
think we need more resources to do that coalbed methane.
    [The information may be found at the end of the hearing.]
    Ms. Hatfield. Certainly.
    Mrs. Cubin. I really don't understand how you can base 
projections without considering the prices down but that is it, 
for another day. Mr. Underwood.
    Mr. Underwood. Thank you very much. Dr. Groat, I am very 
interested in your testimony where you talk about being a 
resource for sound science and you discuss a program called DOI 
Science Priorities, where you are going to provide sound 
impartial scientific information. This reminds me of I guess a 
series of issues that pertain to Guam, but it also pertains to 
many areas where there may be areas, as you well understand, 
where scientists disagree about the information and come to 
very different conclusions. But, in our case, we had the 
Biological Service at one time basically conclude that we had 
some endangered species on Guam as the result of an alien 
predator and the response was to declare a critical habitat and 
declare a wildlife refuge on our island.
    And I think this actual scientific information, in that 
instance, was ignored. And I think it was not utilized. I think 
that the intent all along was to acquire some Federal control 
over the property and, admittedly, there may be some evidence 
pointing in that direction, but it was not originally a problem 
of critical habitat. It was simply a problem of an alien 
predator.
    So my question to you is how do you propose to deal with 
issues like this when the scientific information, perhaps, 
points in one direction, but some of the agency subunits that 
you are servicing want to go in another direction?
    Dr. Groat. Mr. Underwood, that is a question that the 
scientific community has to deal with often and it is a very 
harsh reality sometimes to learn that, while we may think the 
science is what should govern and direct the question--not only 
the question, but the answer--that there are many other 
pressures involved in the decision that go beyond science, 
whether it is economics, politics, morals, or whatever it 
happens to be. And we do find, at times, that what we consider 
good scientific information doesn't guide a decision in the 
direction we might think the science would take it.
    So our response to that is, particularly through the DOI 
Science Initiative, is to work closely with those agencies that 
we are providing that science to and receive agreement that 
this is science they need and that they want to use so that we 
are all together from the beginning, not only on the science 
itself, but how it is going to be used. But, in many cases 
where we do make scientific studies and, while they are peer-
reviewed by the scientific community, when they enter the 
decision process, then they do end up pushed aside, perhaps, in 
favor of either other views of the science or of other 
conditions. And it sounds like you have a case of that.
    Mr. Underwood. Yes, I think we have a clear case of that 
and it is very regrettable because we have had a series of 
policy problems that seem quite intractable as a result of that 
basic decision, which was to ignore the science, which was how 
to deal with an alien predator.
    Which brings me to my next question. In this particular 
instance, we had a problem with the brown tree snake and, yet, 
some of the research money that is being now devoted--and I 
don't know how strongly your agency is involved in it. Much of 
the money that is being devoted to the brown tree snake is 
actually designed to do research on how to keep it on Guam, as 
opposed to going to Hawaii or other places with senators. So my 
question is what kind of resources are you devoting? And I am 
hoping to push you in the direction of actually trying to find 
ways to eradicate the snake.
    Dr. Groat. Mr. Underwood, I can't give you specific numbers 
as to what we are still putting into the brown tree snake 
problem. I sympathize with a control strategy that intends to 
keep it one place rather than keeping it from spreading another 
place. And, certainly, the whole issue of invasive species, 
whether it be brown tree snakes in Guam or cheat grass in the 
Great Basin, we have got a tremendous problem to deal with. And 
we are faced all the time with where our limited resources for 
these kinds of purposes get spent. I would be happy to get back 
to you, for the record, on what amounts of money we are still 
spending on that problem, but we certainly haven't abandoned 
the general problem of invasive species.
    [The information may be found at the end of the hearing.]
    Mr. Underwood. Please do. I would certainly like it for the 
record. I would certainly like to see what we can do in that 
regard and move towards the issue of trying to find a way to 
eradicate the snake.
    Lastly, what is your agency doing in terms of deep seabed 
mining? Are there any plans or----
    Dr. Groat. To be honest with you, Mr. Underwood, deep 
seabed mining is not a terribly high priority within our 
minerals program at this time, largely as a result of the 
economics--the near-term economics--of whether those resources 
would be developed. As you probably know, we have had a long 
history in the resource assessment process and in the geology 
of deep sea areas to look at those resources. But I would have 
to say, at this time, it is not as high a priority as it was in 
years past.
    Mr. Underwood. Okay, well we would like to take another 
look at that and, hopefully, with the cooperation of the Chair, 
we will be able to take a closer look at that and, hopefully, 
have a hearing on it. Thank you.
    Mrs. Cubin. Now if the Ranking Member wants it, I bet he 
will get it.
    Mr. Underwood. Thank you.
    Mrs. Cubin. Mr. Thornberry.
    Mr. Thornberry. Thank you, Madam Chairman. Dr. Kitsos, in 
your written statement, you mentioned three pilot programs 
involving RIK related programs. It seems to me you might add a 
fourth and that is the recent announcement where part of our 
royalty oil from offshore in the Gulf is going to be used to 
begin to replenish the oil which has been sold out of the 
Strategic Petroleum Reserve. Can you tell me how the 
administration looks upon that decision and its affect on the 
budget? How have you worked that through OMB? How does it count 
it? Does that affect your budget or the General Treasury?
    Dr. Kitsos. Well, it will affect the budget of the General 
Treasury. We expect that we will be taking royalty oil in both 
Fiscal Year 1999--because we expect to start fairly soon--and 
then, of course, in Fiscal Year 2000. The President's budget 
estimates that we will forego $170 million in Fiscal Year 1999 
and $200 million in royalty payments in Fiscal Year 2000. 
Presumably, when that oil is sold sometime in the future, that 
will be recouped, but there will be a reduction.
    Mr. Thornberry. And what price of oil is the basis for 
that? Do you have that in front of you?
    Dr. Kitsos. My understanding is the price figures are 
$12.39 a barrel in Fiscal Year 1999, going up to $14.12 a 
barrel in Fiscal Year 2000.
    Mr. Thornberry. I hope it gets to $14 a barrel. It is 
nowhere close to $12 in my neck of the woods right now.
    Another of your pilot programs is you talk about the Texas 
8(g) gas and, as a matter of fact, I understand that some of 
that gas, which is worked through the General Service 
Administration, actually heats the building that we are in now. 
The land commissioner in Texas has recently made a proposal of 
greatly expanding the amount of gas which the State would 
exchange for electricity, which would then be used to heat 
schools and government buildings. Have you all looked at 
something along that line, where Federal gas can be expanded 
and used for whatever, military installations or other 
government facilities, which can get you a better return on the 
gas and cheaper power prices?
    Dr. Kitsos. Yes. As you know, we have a cooperative 
agreement with the Texas GLO and that office, of course, has a 
long experience in taking natural gas from their State leases. 
They create value for the State by supplying State agencies 
with RIK gas. And we have worked with them and we are able to 
learn more about what they are doing. We are using the Texas 
model in partnership with the GSA and we will transfer RIK gas 
to GSA who will then, in turn, distribute it to Federal 
agencies to create value for the Federal Government. We are 
working with the Texas GLO to look for additional opportunities 
to expand this pilot.
    Mr. Thornberry. But are you looking to expand it beyond 
just the gas you get from Texas and don't you think there is a 
potentially broader application for the Federal Government?
    Dr. Kitsos. Well, we are also beginning the early planning 
stages for a large gas pilot project in the Gulf of Mexico and 
that will certainly look beyond the scope of the Texas project.
    Mr. Thornberry. Let me ask you about something that has 
been in the papers a fair amount recently. There have been all 
sorts of articles about how the Department, not necessarily 
MMS, but the Department of the Interior is no longer even 
wanting to talk to the industry about oil valuation problems. 
Number one, is that true? Are you all not even able to talk 
anymore? Number two, you are a new person in the job, kind of, 
hopefully, a fresh approach. Do you think is ever going to be 
worked out or is this going to be a standoff where we call each 
other names in the paper and say ugly things about each other, 
as has happened recently?
    Dr. Kitsos. Well, I remain optimistic, Mr. Thornberry, that 
we are going to be able to work this out. The position of the 
Secretary is this: If the industry has some new ideas to 
resolve the three or four issues that still separate the 
Department and the oil and gas industry--new ideas that we 
haven't considered before--and can provide us some specific 
information in writing, we will take that under advisement, and 
we will explore the opportunity to pursue that. If those ideas 
are consistent with the requirements of the Department to 
obtain the best value for the American taxpayer, we would be 
happy to talk about that. And, in fact, I have put that in 
writing to members of the industry. I have talked with them on 
the phone. We are waiting for a reply. I believe that they are 
working on that.
    The Secretary has also made it clear that he does not want 
any of us to rehash the old issues, to revisit what has been 
discussed over the three years. And so that is sort of the 
dividing line. The door is not closed. We still think we have 
an opportunity. The issue is we don't want to go back and 
reinvent all those old arguments.
    Mr. Thornberry. Well, it doesn't seem to me to be 
particularly helpful if you say everything we have argued about 
over the past, we are not going to discuss anymore. Now if you 
want something new to argue about, you can bring that, but 
nothing else we will talk about. And I have to say--and, again, 
this is not directed to you personally at all--but to have the 
kinds of comments, inflammatory comments, really, made in the 
press as have been made recently does not help anybody solve 
this problem. It only increases antagonism and that is too bad. 
Because when you start fighting with each other, we really lose 
sight of the taxpayers and what this is all supposed to be 
about. Thank you, Madam Chairman.
    Mrs. Cubin. Thank you, Mr. Thornberry. Mr. Rahall.
    Mr. Rahall. Thank you, Madam Chair. Ms. Hatfield, let me 
first congratulate BLM on issuing the proposed 3809 rules, 
despite all the roadblocks that Congress keeps throwing in your 
way and trying to prevent you from doing it. My personal view 
is that these regulations will accomplish much of the 
environmental title of my mining reform legislation. I just 
would like you to know that we will continue along with our 
friends, some of our friends, on both sides of the aisle in the 
Appropriations Committee to continue to resist riders to 
appropriations bills on this particular issue.
    Ms. Hatfield. Thank you. We certainly think that it is an 
opportunity to try to update rules that were originally passed 
in 1980s to address current needs. We are certainly interested 
in the public comment. The public comment period is going on 
right now. We look forward to providing better public 
protection for the environment.
    Mr. Rahall. And you have until October, did you say, of 
this year on those?
    Ms. Hatfield. Right. Under the present mandate, we could 
not issue those regulations until after September 30. We are in 
the comment period now which is going to run until May. We 
would expect that we will have some significant public comments 
and a lot of comments to try to deal with in that intervening 
period.
    Mr. Rahall. Okay. Keep up the good work.
    Ms. Hatfield. Thank you.
    Mr. Rahall. Director Groat, let me also express 
appreciation for all that you do at the Survey. For the benefit 
and, perhaps, the amusement of the Chair as I told you before 
we started the hearings, I would like to note that the 
Association of American State Geologists have selected me to be 
this year's recipient of their pick and gavel award for my 
support of the geosciences in public policy.
    Mrs. Cubin. I thought maybe you needed some dental fillings 
or something there.
    [Laughter.]
    Mr. Rahall. We did spend a considerable amount of time on 
these issues when I was the subcommittee chair and it is nice 
to know that someone still remembers those struggles. I am sure 
you don't, Bill.
    [Laughter.]
    Director Karpan, OSM is proposing an increase in AML 
funding, as you have noted, and I know you have probably had to 
do much battle with the Office of Meddling and Bumbling to get 
it approved.
    [Laughter.]
    So I just wanted to congratulate you. Otherwise known as 
OMB. But, anyway, prior to the hearing, I submitted a number of 
questions to you and you were kind enough and fully respond to 
those in writing and I would ask that they be made a part of 
the record at this point.
    Mrs. Cubin. Without objection.
    [The information may be found at the end of the hearing.]
    Mr. Rahall. I only have one follow-up question to those 
questions, Director Karpan. As you know, I am deeply concerned 
with how the approximate original contour reclamation standard 
was being construed within the context of mountain removal 
mining and you did touch upon this in your opening statement. 
Could you provide us with perhaps a bit more detail of what was 
in your written response on just exactly what this pilot AOC 
formula, to which you refer, consists of?
    Ms. Karpan. Thank you very much, Mr. Rahall. We asked a 
gentleman named Mike Castle who, for 15 years, had mined in 
West Virginia, who has a degree in mining engineering as well 
as a law degree, to go back and take a look at the legislative 
history, including some of the very first versions of SMCRA. 
And what he came out with is, if you will, starting out with 
the whole mountain and saying, we will take the coal out and 
then we will have spoil and it will swell for a certain amount. 
And now we have got to figure out how much of that spoil, under 
the statute, should go back up on the hill.
    And it would be very site specific. Because, for example, 
to assure the stability of the slope, you might have a certain 
kind of configuration in one setting and a different in 
another, but that would be a key factor in how much, because 
you couldn't just put it all back steep. It would have to be in 
a way that would be stable, would not be subject to landslide 
or runoff and siltation in the streams. Then you would take a 
look at how much spoil would be needed for drainage, to 
construct your drainage; how much spoil would be needed for 
access and maintenance.
    The idea behind it would be that you would walk through 
each of these areas where the statute would indicate that you 
could dispose of your spoil in a certain way. And, up-front in 
the permitting process, before--you see, I think the problem in 
the past was, once they are out there reclaiming in a certain 
way, we could never enforce any actions. The judge would say it 
is too late. I think the beauty of this is you will run the 
numbers up-front. You will do the computer calculations up-
front and then the company will know how small that bill has to 
be.
    Now we have not yet put it to the test. That is happening 
right now. But in our preliminary discussions with engineers in 
West Virginia, Kentucky, and in Virginia, they seem to think 
this could work. And I would like to give it a try. It will be 
very site specific and I think it will provide some structure 
to evaluation that in the past has been, frankly, somewhat 
subjective.
    Mr. Rahall. I think that sounds very good and I commend you 
for that. It is a little different then how I heard the story 
of one of our State DEP officials describing his definition of 
AOC before a judge. Looks at his knuckles and those that are 
leveled off, that is approximate original contour.
    On a separate issue, Director Karpan, one final comment, as 
I conclude. I do remain deeply concerned with the so-called AML 
enhancement rule. And we have discussed this in my office. I do 
not share your level of comfort that surface coal mining can be 
conducted outside of the auspices of Title 5 of the Act. Nor do 
I believe that OSM oversight will ensure that abuses do not 
occur. The only thing I can say at this point is that thank God 
we had the citizen's suit provisions of SMCRA. I have concluded 
my comments.
    Mrs. Cubin. Well, Mr. Rahall, I just wanted to offer my 
support in working with you on keeping riders off the 
appropriations bill and I know you will want to support 
resisting that minerals patent rider moratorium. So I would 
love to work with you on that.
    Mr. Rahall. I am sure we will be working together.
    Mrs. Cubin. Yes, I am sure we will.
    [Laughter.]
    I am sure we will be working at the same time, anyway, 
won't we? I also ask unanimous consent to insert in the record 
a statement from the National Association of State Universities 
and Land Grant Colleges for this hearing.
    [The information may be found at the end of the hearing.]
    Mrs. Cubin. I just want to follow up Representative 
Thornberry's question. This is to Dr. Kitsos, of course, and we 
talked about this somewhat yesterday, but I do want to have it 
on the record. It doesn't make any sense to me that, as Mr. 
Thornberry said, that the Secretary says: Okay, I am not going 
to talk to you about this. That you have to come up with all 
the new ideas. This is to the oil companies regarding mineral 
valuation. You have to come up with something new or I am not 
going to talk to you. I mean, basically it seems to me that the 
Secretary's position is oil companies cook the books and I am 
not going to talk to them about it.
    We can have this game of who can outlast who, because I 
believe we can get a moratorium on implementing those 
regulations for as long as he is the Secretary of Interior. But 
that is not productive. That isn't what any of us want, because 
we all know we have a problem and we all want to solve it. So I 
implore you to pass on to the Secretary that I would really 
appreciate it if he would come back to the table with the 
companies.
    If I can in any way help facilitate that or contribute to 
that process, I would love to do that. I know any of my 
colleagues would. Mr. Rahall would. This is a problem that I 
don't think we can just slam the door and say I am not talking 
to you unless you do it my view. I am taking my ball and going 
home. This country is too great for that. So if you would just 
pass that on, I would appreciate it.
    Dr. Kitsos. I will. Thank you.
    Mrs. Cubin. And I thank all of the witnesses for their 
testimony and please feel free to stay in touch with me, the 
Committee staff, if there is anything that comes up that we 
need to know or anything that we could do to help you do your 
job better. And certainly anything you could tell us to help us 
do ours. Oh, and one last thing, I will be sending written 
questions. If you would please respond to those, we will have 
the date on there. Thank you very much.
    The Subcommittee stands adjourned.
    [Whereupon, at 3:18 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of Dr. Charles G. Groat, Director, U.S. Geological Survey

    Madam Chairman and Members of the Subcommittee, I am 
pleased to be here today to present our overview of the U.S. 
Geological Survey's budget request for Fiscal Year 2000. While 
this is my first oversight hearing as the USGS Director, I hope 
to bring to this process an understanding from a customer's 
perspective having been a customer of and having worked with 
the USGS for many years.
    Today, I will tell you about recent successes and our 
highest-priority research areas for FY 2000 and explain how 
this research fits into the larger picture of science needs for 
the Department of the Interior (DOI) and the Nation. With 
extensive capabilities in natural science, the USGS is uniquely 
able to provide its customers with reliable and impartial 
scientific information on a wide range of issues. The challenge 
for the USGS in the 21st century will be to deliver relevant 
products and services to our customers in an efficient and 
timely manner.
    But before I move into the details of our budget request, 
I'd like to share with you what I feel are some very exciting 
recent results coming from USGS science that have had a direct 
effect on the lives of many American citizens.
    I'll start with last year's torrential rains of El Nino. 
While they affected much of the Nation, they hammered the West 
coast where they brought not only flooding, but the life-
threatening hazard of landslides. The results of a similar 
battle with El Nino in 1982 caused 25 deaths in the 10-county 
San Francisco Bay region. In 1998, I am pleased to report that 
not one single death was caused by landslides in the same 10-
county region, in part because of the landslide hazard area 
maps and real-time warnings of increased landslide risk that 
the USGS was able to provide the region's emergency workers.
    Another very exciting result from last year comes out of 
USGS' National Water Use Program. We provide 5-year reports on 
national water use which water resource managers and planners 
nation-wide depend on to make critical planning decisions. The 
most recent survey, released last year, showed some excellent 
news--per capita water use has declined since 1990 in spite of 
continued population growth. This suggests that water 
conservation efforts across the Nation are succeeding in a 
significant way. Of course, we would have not been able to know 
this without the USGS' continuous collection and analysis of 
key natural science information.
    Population growth influences another area of USGS science--
understanding the impacts of urban growth. The majority of 
Americans now live in or near expanding urban areas which is 
creating new pressures on the Nation's transportation systems 
and regional infrastructure. A critical question for local and 
regional planners is where will this growth spread to next? 
USGS science can help answer this question based on its 100-
year archive of historic topographic maps and its 30-year 
archive of satellite image data.
    The USGS and university collaborators have already provided 
urban growth patterns in the San Francisco-Sacramento and 
Baltimore-Washington areas to local and regional officials. The 
USGS is currently working in the Greater New York; 
Philadelphia-Wilmington; Chicago-Milwaukee; and the Portland-
Vancouver urban areas to provide this key information based on 
the Survey's long term databases.
    My last example takes us from urban growth to abandoned 
mine lands on or adjacent to the public lands administered by 
the U.S. Forest Service, Bureau of Land Management (BLM), and 
National Park Service (NPS). The USGS is working closely with 
these land management agencies in developing a watershed-based 
strategy to provide the scientific information needed for 
efficient and cost-effective cleanup of abandoned mine lands. 
This multidisciplinary effort is producing solid results by 
identifying both the largest sources of contamination and those 
that do not need attention. This enables efficient targeting of 
cleanup activities. USGS is also determining environmental 
conditions that existed before mining began in order to 
establish realistic cleanup goals. This activity will continue 
to be of increasing value as additional and more complete 
information is obtained.
    These recent results of USGS science are only a few 
examples of the continuing and direct contributions made to the 
daily lives of the American public. They also demonstrate how 
the FY 2000 USGS budget, $838.5 million as requested by the 
President, will fund research to provide crucial scientific 
information for the Department's land managers along with other 
Federal, State and local decisionmakers, and for disaster 
mitigation and recovery efforts throughout government and 
private organizations.
    Our FY 2000 budget requests a $40.6 million net increase 
over FY 1999 enacted funding to expand USGS efforts to increase 
science support for informed land and resource management, 
improve hazard warning capability, and increase availability 
and accessibility of USGS data. The request continues to 
reflect the USGS's commitment to integrating our scientific 
disciplines into a unified approach for gathering information, 
analyzing data, and delivering scientific information to our 
customers.
    As the Department's science agency, the USGS works directly 
with NPS, BLM, the U.S. Fish and Wildlife Service, and other 
Interior bureaus to address their highest priority research 
needs. In FY 2000, the USGS is consolidating $15 million in 
current DOI support activities with a requested $15 million 
increase to focus science resources on the most urgent research 
priorities of these bureaus. This $30 million in DOI Science 
Priorities proposal brings the total USGS funding that directly 
supports Interior bureaus' science needs to well over 20 
percent of our annually-appropriated budget.
    The DOI Science Priorities request will enable more high-
priority multidisciplinary research to help DOI agencies 
address increasingly complex issues from a foundation of sound 
impartial scientific information. For example, for NPS, this 
initiative will focus an additional $2 million in science 
support as well as an additional $3 million on the Natural 
Resource Preservation Program. It will also complement the 
biologically-oriented support that will continue to be provided 
by our Biological Resources Division.
    American communities need environmental and natural 
resources data to ensure a high quality of life and sustained 
economic growth. Two-thirds of the proposed $10 million 
Community/Federal Information Partnership would go to local 
communities through a competitive matching grant program. This 
will help them create and use geospatial data and associated 
technologies. The remaining funding proposed will allow USGS to 
improve public access to geospatial data through the National 
Spatial Data Infrastructure. This proposal is part of the 
Administration's $39.5 million Community/Federal Information 
Partnership within the comprehensive ``Livability Agenda.''
    Understanding complex ecological problems also requires 
long-term data. Because amphibians are considered good 
indicators of ecosystem health due to their sensitivity to many 
kinds of environmental stress, there is an urgent need to 
evaluate the severity and scope of their decline. The USGS is 
requesting an increase of $5.6 million for amphibian monitoring 
and research to determine the causes and scope of the amphibian 
population decline.
    Day in and day out, USGS streamgages, earthquake sensors, 
and other warning equipment are at work monitoring natural 
hazards to protect life and property throughout the Nation. As 
good as they are, with the passage of time, they need to be 
modernized to properly maintain their vigil. We are requesting 
a $5.5 million increase to accelerate the upgrade of our 
Nation's natural hazards networks and expand our real-time 
warning capabilities. This increase will also improve our 
ability to measure changes in the Earth's magnetic field, an 
area crucial to today's high dependency on electronic 
communications.
    Since 1992, natural disasters have cost this country an 
average of $50 billion a year. Useable, timely scientific 
information helps relief organizations and local governments 
save lives and reduce the costs of natural disasters. During 
the past year, the USGS provided its crucial scientific data 
for the Nation's response to three devastating hurricanes--
Bonnie, Georges and Mitch. Providing our data in such a rapid-
response mode aided the search and rescue efforts associated 
with these disasters, particularly Hurricane Mitch. These 
experiences have demonstrated the urgent need to deliver 
crucial information early and often to agencies responding to 
disasters in the U.S. and abroad. These disasters have also 
demonstrated an urgent need to establish protocols for 
collecting and sharing hazard data so that this information is 
available for decision making before disasters strike. The USGS 
has requested $8 million to contribute to an interagency effort 
to create a Disaster Information Network with common data 
standards and protocols capable of providing critical 
information when and where it is needed.
    Additional FY 2000 increases include: $1 million for coral 
reef research; $1.1 million to study hypoxia in the Gulf of 
Mexico and for the study of native species in Hawaii; $1 
million to begin next-generation work on the National 
Biological Information Infrastructure; $1.5 million for 
deferred maintenance of our many facilities, particularly those 
with health and safety problems of highest priority; and $2.5 
million to expand our satellite data archive capacity for data 
from Landsat 7 which is scheduled for launch this April.
    Along with the budget highlights just mentioned, please 
note that our FY 2000 proposal takes a key step toward 
restructuring our budget to more clearly delineate science from 
the functions that support science. This restructuring 
consolidates appropriated facilities costs into an expanded 
Facilities line item, and all bureau-level administrative costs 
are consolidated into an expanded general administrative line 
item called Science Support. While it may appear that some 
programs have received a decrease in funding through this 
budget restructuring, most programs simply have had their 
administrative costs re-categorized, leaving the research 
funding intact.
    The restructure also establishes a new budget activity--
Integrated Science--which brings a more unified scientific 
response to critical and emerging resource management issues 
and challenges. It includes $30 million for the previously-
discussed DOI Science Priorities and a total $17.7 million for 
place-based studies in South Florida, Chesapeake Bay and 
Watershed, Great Lakes, Platte River, Greater Yellowstone Area, 
San Francisco Bay/Delta, Mojave Desert and Salton Sea. Funding 
for place-based studies includes a requested increase of $2.4 
million over FY 1999.
    Emergency supplemental funding provided by the Congress to 
DOI in FY 1999 will allow the USGS to use $15 million to ensure 
that our computer systems, including those providing critical 
scientific data, will be Y2K compliant.
    In addition to these budget matters, we look forward to 
working with you on adjustments to the National Geologic 
Mapping Act to ensure that the States continue to receive 
appropriate funding for cooperative geologic mapping 
activities; and with your colleagues on the House Science 
subcommittee to reauthorize the National Earthquake Hazards 
Reduction Program which currently authorizes appropriations 
through FY 1999 for our earthquake program.
    In closing, Madam Chairman, the USGS is striving to ensure 
that our customers get the science information they need, when 
they need it, in a form they can use. Thank you for your 
continued support and interest in the work of USGS to provide 
science for a changing world. I would be pleased to answer your 
questions.
                                ------                                


   Statement of Nina Rose Hatfield, Deputy Director, Bureau of Land 
                               Management

    Madam Chairman and members of the Subcommittee, I 
appreciate the opportunity to appear before you today to 
discuss the Fiscal Year 2000 Budget Request for energy and 
minerals programs administered by the Bureau of Land Management 
(BLM).

Budget Overview

    The President's Fiscal Year 2000 Budget proposes 
$1,268,700,000 for the BLM--including funds for operation of 
the Bureau, Payments in Lieu of Taxes, construction and 
facilities maintenance, land acquisition, as well as hazardous 
materials and firefighting activities across the Department of 
the Interior. Of the $641,100,000 requested in the Management 
of Lands and Resources Appropriation, the request for energy 
and minerals activities is $72,230,000. This is an increase of 
$2,286,000 or 3.3 percent above the FY 1999 enacted level of 
funding. The programmatic increase amounts to $450,000 or .6 
percent over the 1999 enacted funding level after allowing for 
costs resulting from principally employee pay raises. The 
President's Budget also requests $33,529,000 for the 
administration of mining claims under the Mining Law of 1872. 
These costs are offset by the collection of mining claim 
maintenance fees. There is also a request for $2,147,000 for 
the assessment of mineral resources on Federal lands in Alaska.
    Funding for the major program activities within energy and 
minerals management are as follows:

        <bullet> $55,326,000 for oil and gas management, which provides 
        for the competitive and non-competitive leasing of oil and gas 
        resources and for inspection and enforcement of active leases;
        <bullet> $7,527,000 for leasing and management of coal leases; 
        and
        <bullet> $9,377,000 for other minerals management activities, 
        which include leasing and management of potash, phosphate, 
        sodium, geothermal and other mineral resources, including 
        mineral materials.
    The energy and mineral resources of the public lands contribute 
enormously to the Nation's economic and social development. The public 
lands produce about 47 percent of the Nation's geothermal resources, 33 
percent of its coal, 11 percent of its natural gas, and 5 percent of 
its oil. Today, BLM manages the resources on about 264 million acres of 
public land, and more than 500 million acres of federally-owned 
subsurface mineral estate. The BLM also provides technical assistance 
for management of minerals on Tribal and alloted lands. The scope and 
importance of BLM's management of energy and mineral resources is 
reflected by these statistics:

        <bullet> At the end of FY 1998, there were over 46,000 oil and 
        gas leases in effect on 33 million acres, with 20,000 of those 
        leases in producing status, and 3,900 producing leases managed 
        by the BLM on Tribal lands;
        <bullet> In 2000, BLM expects to issue about 3,150 oil and gas 
        leases covering about 3.9 million acres;
        <bullet> At the end of 1998, there were 128 producing coal 
        leases, producing 348 million tons, there were also about 
        289,000 mining claim of record;
        <bullet> Also, at the end of 1998, there were a total of 768 
        leases of other mineral resources (such as phosphate, potash, 
        sodium, geothermal and trona);
        <bullet> And last year, the BLM managed the disposal of over 15 
        million cubic yards of sand, gravel and other mineral 
        materials.
    From these activities, the states received revenues totaling 
$550,000,000 in 1998. With the increased filing of applications for 
permits to drill for oil, natural gas and coalbed methane, revenues 
from activities on Federal lands are projected to increase in 2000 with 
Federal royalties from these mineral activities totaling almost 
$1,200,000,000. Resulting payments to the states will total 
$611,000,000. A prime example of the vast amount of revenues generated 
from mineral activity on public land is the competitive coal lease sale 
held in Wyoming in October 1998. That sale brought a bonus bid of 
$158,000,000, of which $79,000,000 goes to the State of Wyoming. 
Royalties generated by the tract will be used for a variety of public 
benefits including highway construction, public schools, the University 
of Wyoming and local governments.
    Within the minerals division, we have continued to focus on 
programs and activities that best serve the public interest while 
maintaining a balanced approach to the management of public lands. 
Allow me to highlight several of those areas:

Revitalization of Indian Country

    The ``Revitalization of Indian Country'' budget proposal will be 
used to work with tribes to increase the effectiveness of their mineral 
development programs and to ensure a fair economic return to Indian 
mineral owners. Funding for this initiative totals $450,000 ($150,000 
each for the oil and gas management, coal management and other minerals 
management subactivities) which would be used to initiate new contracts 
with additional tribes under the Indian Self-Determination Act (P.L. 
93-638) and new agreements under Federal Oil and Gas Resource 
Management Act. The Indian Self Determination Act allows tribes to 
assume responsibility over their respective portions of the BLM's 
minerals programs. By law, the Secretary's trust responsibility is not 
diminished by contracting these functions out to the Tribes and, under 
the Indian Self-Determination Act, the BLM must continue to provide 
oversight of the contracted function. While the BLM believes these 
contracts and agreements will further its effort to meet its trust 
repsonsibility, budgetary concerns remain. The law provides that the 
Federal Government fund not only the direct costs associated with the 
contracted program, but also indirect and support costs, as well as 
startup costs. Contracting under the Act will allow BLM to assist 
tribes with their move towards self-sufficiency and management of their 
mineral resources with the potential to generate significant revenue 
increases for certain tribes through more diligent inspections and 
enforcement.

Comprehensive Oil and Gas Regulations

    In December 1998, the BLM published its proposed comprehensive oil 
and gas regulations aimed at consolidating and streamlining current BLM 
oil and gas regulations, giving operators greater flexibility in 
meeting certain agency requirements, ensuring appropriate bond amounts 
cover costs such as reclamation, and simplifying the classification of 
regulatory violations. Originally, the proposed regulations carried a 
120 day comment period, however, in response to public input and to 
allow optimum time to analyze and comment on the proposed regulations, 
that comment period was recently extended for an additional 60 days 
with a closing date of June 4, 1999. The BLM will hold a series of 
public hearings in areas convenient to the public.

3809 Regulations

    On February 9, 1999, the BLM published its proposed hardrock mining 
surface management or ``3809'' regulations. The proposed rule is 
intended to prevent ``unnecessary or undue degradation'' of public land 
resources by mining operations and improve the clarity and organization 
of the BLM's existing 3809 surface mining regulations. To gather 
comments on the proposed rule, a series of public hearings is planned 
throughout the West and in Washington, DC. The Bureau is awaiting the 
congressionally directed National Academy of Sciences study, due on 
July 31, 1999, which will determine the adequacy of existing 
regulations and, in accordance with Congressional mandates, no final 
regulations will be published before October 1, 1999.

Coalbed Methane

    Exploration for coalbed methane is expected to increase greatly 
over the next few years, especially in Wyoming and other Rocky Mountain 
States. In the most recent court decision in the matter of Southern Ute 
v. Amoco. Tenth Circuit Court of Appeals, the appeals court decided 
ownership of the coalbed methane gas adheres to the ownership of the 
coal, rather than the ownership of the oil and gas. In order to provide 
an interim solution, Congress passed a measure (P.L. 105-277) which 
grandfathers in existing leases with respect to ownership of coalbed 
methane.

Suspension of Operations and Production Policy

    With oil prices as low as they have been since 1975, operators are 
threatened with not being able to continue production on properties 
with low production. The BLM has implemented a two-year policy of 
granting a suspension on leases with stripper oil properties which are 
qualified to receive or have already qualified for a stripper royalty 
rate reduction. Such properties are defined as those averaging 15 
barrels or less of production per day. Allowing a suspension will 
enable operators to hold the lease and avoid premature abandonment of 
producible wells. Further, for those leases without properties that 
qualify for a stripper royalty rate reduction, we will determine on a 
case-by-case basis qualification for a suspension as authorized by 
existing regulations.

Other Initiatives

    Ensuring environmentally sound mineral exploration and production 
and reducing environmental effects of past mining practices will 
continue to be of primary concern to the BLM. Abandoned hardrock mine 
sites may impact public health and the environment due to releases of 
hazardous substances from waste materials and acid drainage. In 
accordance with the Department's Clean Water and Watershed Restoration 
initiative, BLM will continue to address abandoned mine land (AML) 
sites which are adversely affecting water quality. BLM coordinates its 
AML program with State reclamation agencies, the U.S. Forest Service 
(USFS) and the Environmental Protection Agency through an interagency 
agreement. During FY 1997, BLM and USFS commenced two pilot AML cleanup 
programs in Colorado and Montana. A third pilot was launched in Utah in 
FY 1998. In 1999, with additional funds appropriated by Congress, BLM 
will build on the success of the pilots by addressing water quality at 
AML sites in 12 states and 26 watersheds. BLM plans to continue its 
water quality based AML site cleanup activities during FY 2000.
    As we continue to pursue measures which increase efficiencies as 
well as promote environmentally sound recovery of mineral resources, we 
will continue to work with members of this Subcommittee, the public, 
states and industry to improve the BLM's programs. This concludes my 
statement. I will be pleased to answer questions.
                                 ______
                                 
     Statement of Kathy Karpan, Director, Office of Surface Mining 
       Reclamation & Enforcement, U.S. Department of the Interior
Madam Chairman and Distinguished Members of the Subcommittee:
    I am pleased to appear before you today to present the fiscal year 
(FY) 2000 budget request of the Office of Surface Mining Reclamation 
and Enforcement (OSM).
    When I appeared before the Subcommittee last year, I shared with 
you my vision for making OSM a model agency. We are now building on 
that vision. To better serve the States and Tribes, the coal industry, 
and most importantly, the citizens of the coal fields, OSM pledges to 
continue to strive for better Abandoned Mine Lands (AML) reclamation, 
better environmental protection, better customer service, and better 
program operations. Before I discuss the specifics of our FY 2000 
budget request, I would like to share with you some reflections on 
these strategic goals.

Better Environmental Restoration

    Our goal is to repair, reclaim and restore as much land and water 
as possible that was degraded by past mining to provide America with 
cleaner and safer land and water and to provide employment and economic 
opportunities in depressed coal regions.
    Therefore, I am very excited to state this Administration's 
commitment to restoring the environment by aggressively accelerating 
the cleanup of abandoned mine lands resulting from past coal mining 
practices. To this end, we are proposing to implement a multi-year 
effort to fund the AML program at a level commensurate with receipts by 
2003. This commitment will enable us to address the $2.5 billion of 
priority one and two sites that threaten the public health and safety 
of coalfield citizens and the $1.7 billion of priority three sites that 
are serious environmental hazards.
    In our FY 2000 budget, we are requesting a $25 million increase to 
reclaim abandoned mine sites that pose significant threats to human 
safety and the environment. Of this sum, OSM will direct $22 million to 
State and Tribal AML reclamation grants that support the President's 
Clean Water Action Plan. The remaining $3 million increase will provide 
additional funding for the Appalachian Clean Streams Initiative to 
accelerate the cleanup of streams polluted with acid mine drainage 
caused by past coal mining practices.
    The AML reclamation program is one of the Nation's most successful 
environmental improvement programs. OSM carries out the AML program in 
a cooperative manner with the States and Tribes. While the States and 
Tribes have the lead responsibility for on-the-ground reclamation, OSM 
supports their programs by providing technical assistance and by 
conducting cooperative performance reviews of their programs. OSM also 
conducts the reclamation and the emergency programs for States and 
Tribes that do not operate their own programs. In FY 2000, the AML 
program will reclaim over 9,200 acres of abandoned mine sites. 
Additionally, the program will abate over 400 emergency hazards.
    Given the size of the AML problem, OSM recognizes the need to 
assure that resources are used in an optimal manner. Leveraging our 
funds is the very essence of the Appalachian Clean Streams Initiative. 
This initiative now has approximately 80 State and Federal agencies, 
local soil and water conservation districts, national conservation 
organizations, and private foundations working together formally to 
clean up acid mine drainage and to improve the aquatic environment and 
the quality of life for coal field citizens. In FY 2000, OSM will have 
more than double the number of newly begun cooperative projects since 
the program's inception in 1997. Further, the percentage of funds from 
outside sources for the initiative will exceed 60 percent.
    Additionally, our Enhanced AML Reclamation Initiative is now 
complete. This rulemaking was published in the Federal Register on 
February 12, 1999, and will be effective March 15, 1999. This will 
establish a mechanism to provide for the reclamation of abandoned mines 
that otherwise would not likely be reclaimed. For sites targeted by 
this rule, we expect that AML contractors will incorporate the 
anticipated sale of coal at the AML-eligible site in their lowered 
project bids. The lowered project bid will reduce the government's 
share of the total project cost. As a result, less public funding will 
be required for these sites to accomplish the same level of AML 
reclamation. Under this rule, the AML fund saves money, the contractor 
makes a profit, and additional sites are reclaimed.

Better Environmental Protection

    Our goal is to improve the regulatory program for protecting the 
environment, people, and property during current mining operations and 
subsequent reclamation through cooperative results-oriented oversight 
and evaluation of State programs in safeguarding people and the 
environment.
    OSM works cooperatively with the States to assure that the 
environment is protected during coal mining and that operators 
adequately reclaim disturbed land after mining is completed. In 
addressing our protection goal, OSM strongly supports State primacy. 
OSM provides grants to the 24 primacy States to enable them to operate 
their own programs to regulate coal mining operations. We believe that 
the States have unique capabilities and knowledge to regulate the lands 
within their borders. As the States' programs have matured, OSM's 
oversight role has evolved. We are acting less like an overseer or 
supervisor and more as a dedicated resource to enable the States to 
properly fulfill their responsibilities. However, we stand firm as the 
regulator of last resort to assure that the citizens of the coal fields 
and the environment are properly protected during the mining process.
    We now focus on whether the public protection requirements and 
environmental protection standards in the Surface Mining Control and 
Reclamation Act (SMCRA) are achieved by focusing on the on-the-ground 
success of States in meeting environmental protection goals. This 
strategy has resulted in a more positive attitude and spirit of 
cooperation with the States, while still assuring operator compliance. 
An OSM team recently completed a report based on interviews with about 
100 OSM inspectors and field staff involved in oversight. The team 
found the current oversight approach is taking hold and is providing an 
opportunity to work cooperatively to improve State program performance.
    This program achieves results. For FY 2000, the program will 
increase the percentage of sites that are free of off-site impacts to 
protect the environment and public from current mining to 94 percent. 
Additionally, to show the progression of permitted acreage being 
successfully reclaimed, the program will release over 250,000 acres 
from certain performance bonding requirements.
    I would like to briefly touch on an issue that has received much 
attention recently--mountain top mining. We have heard and recognize 
the concerns expressed by coal field citizens, particularly in the 
State of West Virginia. We are working in a close cooperative manner 
with State officials and other Federal agencies in a review of mountain 
top mining practices. OSM, the Environmental Protection Agency, the 
Corps of Engineers, and the Fish and Wildlife Service are actively 
involved in multi-agency scientific studies and administrative 
discussions. By doing this, we can effectively carry out our respective 
responsibilities to protect the environment and provide quality service 
to coal field residents and the coal industry.

Better Service

    Our goal is to strengthen the capabilities of States, Tribes, and 
OSM staff to enforce the mining law effectively by improving service to 
OSM customers, partners, and stakeholders through open communications, 
technical assistance, and the transfer of technology.
    We view our role as providing the States and Tribes the tools 
necessary for them to implement SMCRA requirements effectively and 
efficiently. We provide technical assistance, technical training, and 
technology transfer. I would like to briefly discuss some of the more 
widely used tools that our stakeholders employ in implementing their 
regulatory and reclamation programs.
    Our nationwide technical training program is a prime example of how 
we are seeking to provide better service and technical assistance to 
the States. The training program seeks to develop and update the 
technical skills and professionalism of State, Tribal and Federal 
personnel. Our courses are developed to respond to customer needs. 
During FY 2000 OSM expects to offer about 50 courses and train about 
900 students and to attain an 89 percent customer satisfaction rate.
    Another important tool OSM uses to assist the States and Tribes is 
the Technical Information Processing System (TIPS). Among other uses, 
TIPS assists in mine permit reviews, the design of abandoned mine land 
projects, and the preparation of environmental assessments and 
environmental impact statements. It is also a key element in the 
implementation of the OSM Electronic Permitting Initiative on Federal 
and Tribal lands and in the States. For FY 2000, OSM expects to attain 
an 87 percent customer satisfaction rate among TIPS users.
    The Applicant Violator System (AVS) provides the State regulatory 
authorities with a tool to evaluate whether an applicant for a permit 
is eligible to receive the permit, or is blocked because of outstanding 
SMCRA violations. The States rely extensively on this system. During 
the 11 years of AVS operations, almost 57,000 permit applications or 
AML contractor recommendation requests have been acted upon. OSM 
recently attained a 97 percent customer service rate in the quality and 
timeliness of AVS provided services, thus already exceeding our FY 2000 
goal of 86 percent.
    The ownership and control regulations support the AVS. As you know, 
the U.S. Court of Appeals invalidated OSM's prior ownership and control 
regulations on January 31, 1997. With extensive public outreach and 
much stakeholder input, OSM proposed rules to redesign the basis of 
permit eligibility decisions on coal mine operators. The revised rule 
was published on December 21, 1998.

Better Operations

    Our goal is to improve OSM operations through a more effective and 
efficient management of human and fiscal resources to facilitate the 
reclamation of abandoned mine lands to protect the environment, people, 
and property both during and after mining.
    OSM implements its financial management responsibilities through 
the fee compliance, revenue management, and grants management 
functions. I believe we do an excellent job in these areas. I am proud 
to say that we achieved record highs with a 99.4 percent compliance 
rate with over $273 million in total collections. Additionally, the 
Office of the Inspector General gave our financial statements an 
unqualified opinion for the eighth straight year. This means that the 
data we report is accurate in all material aspects and that we are 
safeguarding the taxpayers' money appropriately.
    Similarly, we are investing in our human resources. To deal with 
the large number of employees eligible to retire within the next 5 to 
10 years, as many as 50 percent, we are developing a succession 
planning effort. This effort will assist us in determining what types 
of employees and skill levels needed for our future.

Fiscal Year 2000 Budget Request

    To meet the goals I have just outlined, I would like to present 
some highlights of our FY 2000 budget proposal. For Fiscal Year 2000, 
OSM is requesting $305,824,000 and 640 full-time equivalent positions, 
an increase of $27.1 million over the FY 1999 enacted level. In 
addition, OSM is requesting $105 million to provide health benefits to 
retired coal miners, who worked for companies that have gone bankrupt 
or no longer exist, and their dependents. Of this sum, $63 million is 
required by permanent authority under the Energy Policy Act of 1992. As 
a result of a recent Supreme Court decision, the Administration is 
requesting legislative authority to provide the remaining $42 million 
so that the United Mine Workers of America Combined Benefit Fund may 
reimburse premiums paid by companies for beneficiaries who become 
redesignated by the Social Security Administration as unassigned to any 
specific company.
    As I previously discussed, I believe the singular highlight of the 
FY 2000 President's Budget is the Administration's proposal to 
implement a multi-year effort to fund the AML program at a level 
commensurate to fee receipts by 2003. This gradual, but significant, 
increase in project funding will result in a concurrent increase in 
reclaimed acreage over the next several years and will also provide a 
major beneficial impact to the citizens of the coal fields and the 
lands and waters in their communities.
    As I mentioned, we are requesting a $25 million increase in FY 2000 
to reclaim abandoned mine sites that pose significant threats to human 
safety and the environment. Of this sum, we will target $22 million to 
State and Tribal grants that support the President's Clean Water Action 
Plan. The increase will be directed to those States and Tribes that are 
using AMI, funds to address environmental problems caused by historic 
abandoned coal and other mine sites. The increase will also focus on 
those States and Tribes that obligate all their AMI, funds. This will 
result in a State grant total approaching $170 million. The remaining 
$3 million increase will provide additional funding for the Appalachian 
Clean Streams Initiative to accelerate the cleanup of streams polluted 
by acid mine drainage resulting from past coal mining practices. We 
will now be funding the initiative at $10 million.
    This increase in AML funding directly supports our strategic goal 
of better reclamation. The increase in grant funding will result in 
approximately 1,200 acres more being reclaimed than otherwise would be 
the case. The increase for the Appalachian Clean Streams Initiative 
will result in 42 new projects and will also result in funds leveraging 
such that 60 percent of funding will come from other sources.
    OSM's overall FY 2000 request includes $94.7 million for the 
Regulation and Technology appropriation and $211.1 million for the 
Abandoned Mine Reclamation Fund appropriation. This request provides a 
$27.1 million increase over FY 1999. As I have previously discussed, 
the preponderance of this increase--$25 million--will be directly 
translated into on-the-ground reclamation efforts. The remaining $2.1 
million increase will cover uncontrollable increases in our fixed 
costs.
    This request will enable OSM to provide financial support for 24 
State regulatory programs, and for the AML programs implemented by 23 
States and three Tribes. It will also enable OSM to continue to 
directly administer Federal regulatory and reclamation programs in 
States that do not operate their own programs and on Federal and Tribal 
lands.
    Most of the funding appropriated to OSM is passed on to the States 
and Tribes in the form of regulation and reclamation grants. For FY 
2000, our request includes $169.3 million for reclamation grants and 
$50.6 million for regulatory grants. These grants, coupled with 
emergency and high priority AML project funding, account for nearly 80 
percent of OSM's budget. The remaining portion of the budget provides 
funding for OSM's internal operations including technical training and 
other forms of technical assistance to the States and Tribes.
    Let me now address the other component to our budget--the annual 
transfer payment to the United Mine Workers of America Combined Benefit 
Fund. This transfer, funded from interest on the AML fund, provides 
health benefits for certain retired coal miners and their dependents, 
when an employing company is no longer in business. For FY 2000 OSM is 
requesting $105 million in two components. Of this sum $63 million will 
be transferred to the Combined Benefit Fund for unassigned 
beneficiaries as required by the permanent authority of the Energy 
Policy Act of 1992. In addition, OSM is requesting a one-time increase 
of up to $42 million to help defray the costs associated with a recent 
U.S. Supreme Court decision, Eastern Enterprises v. Apfel, and related 
decisions. This Supreme Court decision stated that Eastern should not 
have been responsible for paying these health benefits. Thus, certain 
beneficiaries that were previously assigned to Eastern and similarly 
situated companies are now being redesignated as unassigned.

Government Performance and Results Act

    OSM recognizes the importance that both the Administration and the 
Congress have placed on implementing the Government Performance and 
Results Act (GPRA). OSM's FY 2000 budget request fully addresses GPRA 
requirements. OSM established strategic goals and associated 
performance measures to justify its resource requirements. OSM first 
identified its major functions, or Business Lines. OSM then developed a 
Strategic Plan to carry out its mission, vision, and goals and 
implemented a new budget structure that allows OSM to relate resource 
requests to strategic goals in a more understandable way. OSM developed 
a business-line based accounting system to determine the cost of each 
program activity better, provide a mechanism for linking costs to 
performance outputs, and enhance OSM's management decision-making 
process.
    OSM's Business Lines are:

        <bullet> Environmental Restoration.
        <bullet> Environmental Protection.
        <bullet> Technology Development and Transfer.
        <bullet> Financial Management.
        <bullet> Executive Direction and Administration.
    Because OSM's new budget structure links directly to its strategic 
goals and measures, OSM has fully integrated its FY 2000 Annual Plan 
into its Budget Justifications to Congress.

Proposed Appropriation Language

    OSM is also proposing certain appropriation language changes in its 
FY 2000 budget proposal. These changes will allow OSM to:

        <bullet> Specify that the Appalachian Clean Streams Initiative 
        will be funded from the Federal expenses share of the Abandoned 
        Mine Reclamation Fund;
        <bullet> Target the $22 million increase for State and Tribal 
        reclamation grants to those States and Tribes that use AML 
        funds to address problems caused by historic abandoned coal and 
        other mine sites and obligate to grants all of their 
        distributed portion of the FY 1999 AML appropriation.
    In closing, I thank the Subcommittee for providing this opportunity 
to present OSM's FY 2000 budget request and to summarize our recent 
accomplishments and to outline our vision for OSM's future. I believe 
this is a sound, fiscally responsible budget proposal that contains the 
resources necessary for OSM and the States and Tribes to implement 
SMCRA requirements effectively. I will now be happy to respond to any 
questions you may have.
[GRAPHIC] [TIFF OMITTED] T6281.001

[GRAPHIC] [TIFF OMITTED] T6281.002

[GRAPHIC] [TIFF OMITTED] T6281.003

[GRAPHIC] [TIFF OMITTED] T6281.004

[GRAPHIC] [TIFF OMITTED] T6281.005

[GRAPHIC] [TIFF OMITTED] T6281.006

[GRAPHIC] [TIFF OMITTED] T6281.007

[GRAPHIC] [TIFF OMITTED] T6281.008

[GRAPHIC] [TIFF OMITTED] T6281.009

[GRAPHIC] [TIFF OMITTED] T6281.010

[GRAPHIC] [TIFF OMITTED] T6281.011

[GRAPHIC] [TIFF OMITTED] T6281.012

[GRAPHIC] [TIFF OMITTED] T6281.013

[GRAPHIC] [TIFF OMITTED] T6281.014

[GRAPHIC] [TIFF OMITTED] T6281.015

[GRAPHIC] [TIFF OMITTED] T6281.016

[GRAPHIC] [TIFF OMITTED] T6281.017

[GRAPHIC] [TIFF OMITTED] T6281.018

[GRAPHIC] [TIFF OMITTED] T6281.019

[GRAPHIC] [TIFF OMITTED] T6281.020

[GRAPHIC] [TIFF OMITTED] T6281.021

[GRAPHIC] [TIFF OMITTED] T6281.022

[GRAPHIC] [TIFF OMITTED] T6281.023

[GRAPHIC] [TIFF OMITTED] T6281.024

[GRAPHIC] [TIFF OMITTED] T6281.025

[GRAPHIC] [TIFF OMITTED] T6281.026

[GRAPHIC] [TIFF OMITTED] T6281.027

[GRAPHIC] [TIFF OMITTED] T6281.028

[GRAPHIC] [TIFF OMITTED] T6281.029

[GRAPHIC] [TIFF OMITTED] T6281.030

[GRAPHIC] [TIFF OMITTED] T6281.031

[GRAPHIC] [TIFF OMITTED] T6281.032

[GRAPHIC] [TIFF OMITTED] T6281.033

[GRAPHIC] [TIFF OMITTED] T6281.034

[GRAPHIC] [TIFF OMITTED] T6281.035

[GRAPHIC] [TIFF OMITTED] T6281.036

[GRAPHIC] [TIFF OMITTED] T6281.037

[GRAPHIC] [TIFF OMITTED] T6281.038

[GRAPHIC] [TIFF OMITTED] T6281.039

[GRAPHIC] [TIFF OMITTED] T6281.040

[GRAPHIC] [TIFF OMITTED] T6281.041

[GRAPHIC] [TIFF OMITTED] T6281.042

[GRAPHIC] [TIFF OMITTED] T6281.043

[GRAPHIC] [TIFF OMITTED] T6281.044

[GRAPHIC] [TIFF OMITTED] T6281.045

[GRAPHIC] [TIFF OMITTED] T6281.046

[GRAPHIC] [TIFF OMITTED] T6281.047

[GRAPHIC] [TIFF OMITTED] T6281.048

[GRAPHIC] [TIFF OMITTED] T6281.049


</pre></body></html>
